<html>
<title> - TOURISM IN AMERICA: MOVING OUR ECONOMY FORWARD</title>
<body><pre>[Senate Hearing 112-329]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-329
 
                          TOURISM IN AMERICA: 
                       MOVING OUR ECONOMY FORWARD

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON COMPETITIVENESS, INNOVATION, AND EXPORT PROMOTION

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
73-539                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b6a1be91b2a4a2a5b9b4bda1ffb2bebcff">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

   SUBCOMMITTEE ON COMPETITIVENESS, INNOVATION, AND EXPORT PROMOTION

AMY KLOBUCHAR, Minnesota, Chairman   ROY BLUNT, Missouri, Ranking
JOHN F. KERRY, Massachusetts         JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                KELLY AYOTTE, New Hampshire
MARK WARNER, Virginia                DEAN HELLER, Nevada
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 17, 2011................................     1
Statement of Senator Klobuchar...................................     1
Statement of Senator Blunt.......................................     3
Statement of Senator Begich......................................     4
Statement of Senator Heller......................................     5
    Prepared statement...........................................     5
Statement of Senator Rockefeller.................................    14
    Prepared statement...........................................    15
Statement of Senator Thune.......................................    25

                               Witnesses

Ken Hyatt, Deputy Assistant Secretary for Services, U.S. 
  Department of Commerce.........................................     7
    Prepared statement...........................................     8
David T. Donahue, Deputy Assistant Secretary for Visa Services, 
  U.S. Department of State.......................................    10
    Prepared statement...........................................    11
James P. Evans, Chief Executive Officer, Brand USA...............    28
    Prepared statement...........................................    29
John F. Edman, Director, Explore Minnesota Tourism...............    31
    Prepared statement...........................................    33
Jonathan Zuk, President, Amadeo Travel Solutions/Vice Chairman, 
  Receptive Services Association of America......................    34
    Prepared statement...........................................    36
Jonathan Tisch, Chairman and Chief Executive Officer, Loews 
  Hotels and Chairman Emeritus, U.S. Travel Association..........    38
    Prepared statement...........................................    40

                                Appendix

Hon. Tom Udall, U.S. Senator from New Mexico, prepared statement.    51
Starwood Hotels & Resorts Worldwide, Inc., prepared statement....    51
National Retail Federation, prepared statement...................    53
United States Tour Operator Association, prepared statement......    55
Response to written questions submitted by Hon. Tom Udall to:
    James P. Evans...............................................    56
    John F. Edman................................................    57
    Jonathan Zuk.................................................    57
    Jonathan Tisch...............................................    58


                          TOURISM IN AMERICA: 
                       MOVING OUR ECONOMY FORWARD

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2011

                               U.S. Senate,
  Subcommittee on Competitiveness, Innovation, and 
                                  Export Promotion,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Amy 
Klobuchar, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Good afternoon. We'll call this hearing 
to order.
    I want to thank all the witnesses that are here from all 
over the country for this important discussion about tourism 
and the impact on our economy.
    Coming from Minnesota, tourism is the fifth largest 
industry in our state. Tourism is about so much more, as we all 
know, than hospitality. It's about jobs. I'm reminded of this 
every day.
    When I'm in my state, I always ask people how much do they 
think that visiting fishermen spend on bait and worms in our 
state. I bet you don't know, Senator Blunt, every year how much 
they spend on worms.
    Senator Blunt. I was just hoping they got a lot of their 
tackle from Bass Pro in Springfield, Missouri.
    [Laughter.]
    Senator Klobuchar. No, but they spend $50 million a year on 
worms, just to give you a sense of what tourism means in terms 
of economic activity in our state. I think we all know that 
tourism is an industry where the jobs are right here in 
America.
    That's why Senator Blunt and I called this hearing today 
because we believe there are things we can do to build on the 
already strong numbers in the tourism sector and to make sure 
that we strengthen the industry even more. There are a lot of 
good ideas out there and we want to discuss a few common sense 
solutions, simple fixes that can expand our country's tourism 
sector at no cost to taxpayers.
    We've always had a very bipartisan approach to this 
Subcommittee and we'll continue to do that, and that's how 
we're producing some results.
    One of the things we focused on is international tourism. 
Every international foreign visitor to our country spends an 
average of $4,000.
    Sadly, since 9/11, we've lost 16 percent of the 
international tourism business. Every point that we lost was 
about 160,000 jobs. Just last year, we've seen some great 
improvements which we're excited about and we want that trend 
to continue.
    One of the things that we've focused on is the visa wait 
times. Senator Blunt and I introduced a bill to help with that 
and we worked with the State Department on the language to get 
that done.
    Just to give you a sense, for a person in Rio de Janeiro, 
Brazil, it takes 90 days to get an interview for a visa.
    If that same tourist wants to go to the United Kingdom, the 
entire visa application process takes an average of 12 days. So 
when you look at those numbers if you're someone who's planning 
a trip with your family to the United States and you want to go 
to see the Golden Arches in St. Louis, right--what?
    Senator Blunt. Not exactly the Golden Arches.
    Senator Klobuchar. What are they called again?
    [Laughter.]
    Senator Blunt. I'll take the Happy Meal.
    Senator Klobuchar. The Arch. OK. Well, it's like golden. 
Oh, that would be McDonald's.
    Senator Blunt. Yes. That's the Happy Meal.
    [Laughter.]
    Senator Klobuchar. OK. If you want to see the Arch. I was 
trying to make it sound even--OK, just stop it. If you want to 
see Mount McKinley in Alaska that would be correct.
    Senator Blunt. Mount Denali, yes.
    [Laughter.]
    Senator Blunt. I'm just harassing her.
    Senator Klobuchar. If you want to see the bright lights of 
Las Vegas that would be correct, you would be--have to choose 
between a very long wait of 90 days or if you want to simply go 
to London it takes only 12 days.
    And so that's why we are so focused on this idea of 
improving the wait times. We've been working with the State 
Department and I know they have someone here today so we're 
going to be hearing from them.
    We also would like to do more things to make it easier to 
get those visas done. The bill that we have gives the State 
Department an economic incentive for increasing the efficiency.
    It allows the Secretary of State to grant a waiver of up to 
an additional 3 years, 4 years total, so that foreign tourists 
can renew their visas without having to jump through the hoops 
of another in-person interview and it would increase 
accountability at the State Department, requiring the agency to 
provide reports on its use of data from the Commerce 
Department.
    That way we know the agency is actually looking at the 
numbers and thinking about the economic impact of its policies 
on tourism and our economy.
    Another way to cut back on visa wait times would be to hire 
more temporary consular officers. We know that the State 
Department is doing that. We also know, are conscious of the 
government budget right now, that they're actually a profit 
center, not a cost center. Because of the visa fees, they 
actually make money for the government.
    I also think it's worth considering changes to the visa 
waiver program which allows citizens from certain countries to 
visit the U.S. without a visa. Those are just a few of the 
ideas that you're going to see, some of them in our 
legislation, some of them discussed today.
    But we're truly excited to have this hearing. I see tourism 
as the major export of our country. We have to start viewing it 
that way. We know people love to take trips but it's more than 
that. It's really about a competitive agenda for this country 
where we are supplying the jobs, where we have people visiting 
our country instead of our people visiting others.
    We like when they visit other countries but the point of it 
is there is a lot to gain here with jobs.
    I turn it over to my Ranking Member, Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Well, thank you, Chairman, and Chairman 
Klobuchar is a great advocate for these issues and great to 
work with, and I am pleased to be able to be doing so many 
things with her in this area.
    You know, the United States has a lot to offer as a place 
to come and we have a lot to see and a lot to do and we need to 
take even greater advantage of that. A million jobs, just to 
meet the needs of foreign travelers alone. This is a place 
where people like to come. They stay longer. They buy more.
    Foreign travelers are good for us and at the end of the day 
they like us a lot better. And so many of you have heard me say 
over and over again this has an international component to it 
that's well beyond the economic component but the economic 
component is pretty good.
    I see Jim Evans here who is heading the newly named Brand 
USA, formerly referred to as the Corporation for Travel 
Promotion. But Jim is here and is going to be talking about 
what they're doing with this new concept where we encourage 
travelers and hopefully get back to where we were before 9/11 
in terms of our percentage of foreign travelers and then exceed 
that number.
    We use a lot of different numbers in Washington. The number 
somebody gave me the other day was 36. Thirty-six foreign 
travelers equal one full-time U.S. job, and both in trade and 
travel are the real opportunities, I think, for us to grow jobs 
and to grow them in the quickest possible segments if we'll 
just do what we need to do there.
    We're pleased to have Mr. Donahue with us from the State 
Department. We're talking about the delays that the Chairman 
has already mentioned and what we can do about those delays.
    I was in Beijing earlier this year meeting with people at 
the embassy who were dealing with those long lines of people 
and came back with a couple of ideas that we've been able to 
talk with our friends at State about and they well aware of the 
kinds of things we could do.
    And so Senator Klobuchar and Mr. Donahue and Mr.--others in 
the State Department and I and our staffs have been working 
closely together and are going to be working hard to get 
legislation passed that allows us to meet the needs of foreign 
travelers in a better way.
    Mr. Hyatt from Commerce well knows the importance of 
foreign travel to our economy and we look forward to his 
comments. The Chairman sometimes says that this is not just the 
low--the travel's not just--foreign travel is not just the low-
hanging fruit, it's the fruit that we've already let drop to 
the ground, and we need to be sure that we're doing a better 
job getting people at the moment they're thinking about where 
they want to go and being sure they're thinking about coming to 
the United States and then doing what we need to to make that a 
doable thing that doesn't send them in some other direction 
because of the frustration and difficulties that they face if 
we can do things about that.
    This is an important opportunity. It's an important time 
and we're glad that all of the members of both panels are here 
and I look forward to--what you have to say and asking some 
questions, and again, Chairman, thanks for working with me and 
for leading here and putting this hearing together.
    Senator Klobuchar. Thank you very much, Senator Blunt.
    We have Senator Begich here. I don't know if you want to 
say a few words from the beautiful state of Alaska that has 
many Minnesotans there. It looks like Minnesota except it has 
mountains. And I would also like to note one of the----
    Senator Begich. It's 39 below zero.
    Senator Klobuchar. Yes, OK. One of the founding--one of the 
founding Chairs of our Tourism Caucus, Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Madam Chair, and thank 
you for the great panels that are--not only the first one but 
the second one also. I'm going to be anxious to hear the 
conversation how we increase foreign travel. In Alaska, it's 15 
percent of our market is foreign travel and we see the huge 
economic bang out of it every time a foreign traveler hits our 
soils.
    For Alaska, it's a $2 billion industry with about 40,000 
people employed in it in this last year and I can tell you it's 
not only from a broader public policy perspective but a family 
that's in the tourism business. We see it from a variety of 
ends and we saw 2011 slow growth but growth, which was a good 
sign.
    I think nationally almost 100,000 jobs this last year in 
2011 were added in the tourism industry, which is a good thing.
    But the other piece--I'll just end on this and look forward 
to the questions and answer period--and that is to me the 
tourism industry, especially with our foreign travelers, is not 
just about the economic opportunity. People in the tourism 
industry are really our ambassadors to the world.
    When those foreign travelers hit the soil, they're going to 
be at a hotel. They're going to be at restaurant. They're going 
to be coming through the airport.
    How we treat them, how we work with them, how we give them 
an experience that's exciting and rewarding that they want to 
come back is powerful for us but also when they go back to 
their home country it is a message that they're going to take 
back that America, United States, is a great place to visit and 
has incredible opportunity.
    So thank you, Madam Chair, for putting this hearing 
together and I look forward to the conversation and I'm looking 
forward especially to this panel on how we increase visa 
capacity, and to the second panel some of the questions I'll 
have is around what kind of infrastructure are we going to 
need, what do we need to support this incredibly growing 
industry that really is economic but also international for us.
    Senator Klobuchar. Senator Heller?

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Thank you. I have a opening statement that 
I'd just like to submit for the record just for a matter of 
time.
    Senator Klobuchar. It will be submitted. Thank you.
    [The prepared statement of Senator Heller follows:]

    Prepared Statement of Hon. Dean Heller, U.S. Senator from Nevada
    I want to thank my colleagues for holding this important hearing 
today which highlights an issue I fight for every day: JOBS. In Nevada, 
having a strong tourism industry means more jobs in my state. Las 
Vegas, Lake Tahoe and Reno have long been a favorite recreation 
destination for millions of visitors both domestically and more 
increasingly internationally. The entire Southern Nevada economy is 
heavily dependent on the hotel, gaming and convention industry, which 
employs over one-quarter of the region's labor force. Plain and simple, 
tourism is the lifeblood for businesses and job creation in Nevada.
    The viability of the economy in Nevada is dependent upon the volume 
of visitors to our state. Last year 37 million visitors came to Las 
Vegas alone. With one quarter to go, an estimated 29.5 million people 
have visited in 2011, 4.7 percent ahead of the 2010 pace. A large 
volume of visitors come because Las Vegas continues its reign as the 
number one trade show destination in North America. Las Vegas hosts 
thousands in meetings and conventions annually and generates billions 
in revenue. Contrary to what some may say, Las Vegas is the preeminent 
location for businesses and trade associations to hold their 
conventions and shows.
    Also important is the fact that foreign travelers are a growing 
segment of visitors to Nevada and Las Vegas. In 2006, 13 percent of 
travelers were from outside the United States. In 2010 that number has 
risen to 18 percent. I appreciate Chairwoman Klobuchar and Ranking 
Member Blunt working with me on legislation that would update and 
improve the visa application process overseas, especially in China and 
Brazil. This effort will help bring more visitors to the United States 
and create new employment opportunities immediately.
    Right now Nevada leads the Nation in unemployment at 13.4 percent. 
It is my hope that we can continue our bipartisan efforts and push for 
new initiatives that spur growth in the tourism industry. Fostering 
more domestic and international tourism is not a Democrat or Republican 
issue, it is an American issue. Thank you Chairwoman Klobuchar and I 
look forward to hearing from our witnesses today.

    Senator Heller. And if I may also just make a couple of 
quick--I'm still trying to get my arms around this $15 million 
in worms. If we're----
    Senator Klobuchar. That would be $50 million.
    Senator Heller. Fifty?
    Senator Klobuchar. Well, you have to include bait too, 
actually.
    Senator Heller. All right. All right.
    Some facts, as we talked about facts here, in Las Vegas, 
you know, we take in almost $9 billion in gross gaming revenue 
every year and the average visitor gambles when they come to 
Las Vegas about 3 hours a day, and 80 percent of the visitors 
say that when they--that they gambled during their stay.
    And, obviously, things changed after 9/11. But it does 
appear that there's some improvement. I'm just looking at some 
of the recent statistics that southern Nevada tourism has 
continued a steady climb. In their--Las Vegas Convention 
Visitor Authority announced a 5.5 percent increase in 
visitation over September.
    So we are making some improvements. Things are moving in 
the right direction. Number of passengers getting off the plane 
in Las Vegas at the McCarran Airport was up 8.2 percent and 
that's good news. The bad news is that the number of cars used 
on major highways was down 2.2 percent. That's not your 
problem. I'm trying to get more people to get off of planes.
    So anyway, we're making movement in the right direction 
but, clearly, visitations--I don't have to tell anybody in this 
hearing today how important, critically important, tourism is 
for the state of Nevada, not just in southern Nevada but also 
Reno, Lake Tahoe and some of those areas.
    So I just appreciate the Chairman and the Ranking Member 
working together on this kind of legislation that's going to be 
beneficial not only for the state of Nevada but for the country 
as a whole. So thanks for allowing me to be part of it.
    Senator Klobuchar. Well, very good. Thank you, and I should 
also note Senator Heller is a member of the Tourism Caucus as 
well and of this Subcommittee. So thank you very much.
    I know that Senator Rockefeller is going to stop by but I 
think we'll get started with our witnesses. I'm going to 
introduce both of you and they both represent two of the 
departments tasked with increasing international tourism still 
keeping in mind, of course, the importance of national 
security.
    Ken Hyatt is the Deputy Assistant Secretary for Services at 
the Department of Commerce where he directs the Department's 
efforts to enhance the competitiveness of the U.S. services 
industries including travel and tourism.
    Mr. David Donahue is the Deputy Assistant Secretary for 
Visa Services at the Department of State. Mr. Donahue has been 
with the State Department for quite some time. He has been on 
the front lines as a consular officer in various postings 
around the world and is intimately familiar with the challenges 
faced by our consular officers overseas.
    I would also note that I used the statistic in Brazil but 
I'm sure as you'll share with us we have seen some 
improvements, especially during the past year in the visa wait 
times, particularly in China, and we'd like that trend to 
continue and we really thank you for the efforts, about your 
effort and Mr. Tom Nides' from the State Department.
    I think we'll start with Mr. Hyatt. Thank you.

    STATEMENT OF KEN HYATT, DEPUTY ASSISTANT SECRETARY FOR 
             SERVICES, U.S. DEPARTMENT OF COMMERCE

    Mr. Hyatt. Thank you.
    Chairwoman Klobuchar, Ranking Member Blunt, distinguished 
members of the Subcommittee, thank you for giving me the 
opportunity to testify about the importance of travel and 
tourism to the U.S. economy and the progress the Commerce 
Department is making in implementing the Travel Promotion Act.
    The Obama Administration is keenly aware of the critical 
importance of travel and tourism to our economy and creating 
jobs. Because the infrastructure is already in place, an 
increase in travel and tourism exports can lead to additional 
jobs more quickly than in many other industries.
    In the United States, travel and tourism was a $1.1 
trillion sector of the economy in 2010, supporting more than 
7.5 million American jobs. We estimate that every additional 65 
international visitors to the United States generate enough 
travel and tourism exports to support one additional travel- 
and tourism-related job. In 2016, we forecast 22 million more 
international visitors to the United States than in 2010.
    Yet, while the United States is the undisputed global 
leader in revenues generated by travel and tourism exports in 
absolute terms, our share of the world market has declined from 
17.3 percent to 11.2 percent in the last decade.
    Therefore, we were encouraged by the passage of the Travel 
Promotion Act which received broad bipartisan support and was 
signed into law by President Obama last year.
    We were encouraged because, unlike our competitors, the 
United States has not had an official brand campaign to promote 
travel and tourism to our country. The Corporation for Travel 
Promotion established by the Act provides a key opportunity to 
promote international travel and tourism to the United States 
and increase its contribution to our economy.
    It will also enable us to compete at a level with the well-
funded and aggressive work carried out by our competitors to 
attract international travelers to their countries.
    I'm pleased to report that just this month the corporation, 
which will be doing business as Brand USA, unveiled its brand 
strategy to an international audience at the World Travel 
Market in London. This is an important step in the effort to 
recapture the lost U.S. share of the global travel market.
    As called for in the legislation, Commerce is actively 
working with the corporation to attract more international 
visitation to the United States but our work under the Act is 
not limited to working with the corporation.
    As provided in the Act, the Department of Commerce, through 
its International Trade Administration, is closely 
collaborating with the Departments of State and Homeland 
Security to improve the experience of travelers entering the 
United States.
    The Department is also working with State, DHS and the 
White House to identify and more effectively communicate the 
progress the Administration is making to address the concerns 
of the private sector.
    We're working with the Secretary's private-sector Travel 
and Tourism Advisory Board to understand industry concerns and 
with our interagency partners to develop a culture of 
interagency collaboration and continual improvement. The 
Department looks forward to continuing our work to achieve the 
goals of the Travel Promotion Act.
    We will continue to coordinate through the Tourism Policy 
Council and with the White House to improve the U.S. entry 
process and to communicate U.S. travel requirements more 
effectively. This work is a top priority for the Administration 
and through the Tourism Policy Council we will ensure it 
receives Cabinet-level attention.
    The potential of the Act to create new opportunities for 
U.S. travel and tourism exports is critical in supporting the 
President's National Export Initiative and achieving the 
President's job-creation objectives. This is an exciting time 
for the United States to engage in the global marketplace.
    With the tools provided by the TPA, the United States is 
better able to proactively compete for international visitors. 
After all, more international visitors means more people eating 
in our restaurants, staying in our hotels, visiting our 
attractions, shopping in our malls and learning about our 
extraordinary culture and values.
    Chairwoman Klobuchar, Ranking Member Blunt, distinguished 
members of the Subcommittee, thank you again for inviting me to 
testify. I'll be happy to answer any questions you have.
    Senator Rockefeller?
    [Laughter.]
    [The prepared statement of Mr. Hyatt follows:]

    Prepared Statement of Ken Hyatt, Deputy Assistant Secretary for 
                 Services, U.S. Department of Commerce

``Travel and Tourism Export Successes: Implementation of the Travel 
        Promotion Act of 2009''
    Chairwoman Klobuchar, Ranking Member Blunt, and distinguished 
members of the Subcommittee, thank you for giving me the opportunity to 
testify about the importance of travel and tourism to the U.S. economy 
and the progress the Department of Commerce is making in implementing 
the Travel Promotion Act of 2009.
    I am Ken Hyatt, Deputy Assistant Secretary for Services at the 
Department of Commerce's International Trade Administration. The news 
regarding travel and tourism is good. I am honored to be here to share 
this information with you.

Importance of Travel and Tourism to the U.S. Economy
    The Obama Administration, and specifically the Department of 
Commerce, is keenly aware of the critical importance of travel and 
tourism to the U.S. economy and to job creation in our country. Travel 
and tourism jobs are found throughout the economy and across the 
country, from hotels and restaurants, to rental car companies and tour 
operators. Because the infrastructure is already in place, an increase 
in travel and tourism exports can lead to additional jobs more quickly 
than it does in many other industries. Accordingly, travel and tourism 
is a priority sector under the President's National Export Initiative 
and plays a critical role in the Department's export promotion 
strategy.
    In the United States, travel and tourism was a $1.1 trillion sector 
of the economy in 2010, supporting more than 7.5 million American jobs. 
A record-breaking 60 million international visitors arrived in the 
United States in 2010, a 17 percent increase over the number of 
visitors in 2000. These international travelers spent more than $134 
billion during their visits, a 12 percent increase from 2009.
    Expenditures by international travelers are U.S. exports. We 
estimate that every additional 65 international visitors to the United 
States generate enough travel and tourism exports to support one 
additional travel and tourism-related job. In 2016, we expect 22 
million more international visitors than this year. We estimate that 
these additional visitors will spend tens of billions of dollars, 
supporting hundreds of thousands of jobs. In 2010, the United States 
had a surplus of nearly $32 billion in travel and tourism receipts, an 
increase of 50 percent over the 2009 surplus.
    These figures clearly underscore the importance of travel and 
tourism to strengthening the U.S. economy. In addition, travel and 
tourism is a key vehicle/opportunity to showcase the United States--its 
culture, its values, its beauty--to the rest of the world. However, 
while the United States is, in absolute terms, the undisputed global 
leader in revenues generated by travel and tourism exports, our share 
of the world market has declined from 17.3 percent to 11.2 percent in 
the last decade.

Implementation of the Travel Promotion Act
    Therefore, we were encouraged by the passage of the Travel 
Promotion Act (TPA), which received broad bipartisan support and was 
signed into law by President Obama on March 4, 2010. We were encouraged 
because unlike our competitors, the United States has not had an 
official brand campaign to promote travel and tourism to our country. 
The Corporation for Travel Promotion (CTP) established by the TPA 
provides a key opportunity to promote international travel and tourism 
to the United States and increase its contribution to our economy, at a 
level that will enable us to compete with the well-funded and 
aggressive work carried out by our competitors to attract international 
travelers to their countries.
    I am pleased to report that just this month, the CTP unveiled its 
brand strategy to an international audience at the World Travel Market 
in London. This is an important step in the effort to recapture the 
lost U.S. share of the global travel market.

DOC Support for the TPA and Corporation for Travel Promotion
    The Travel Promotion Act calls for the Department of Commerce to 
serve as the liaison to the CTP and outlines the responsibilities of 
the Department in this area. I am pleased to report to you and the 
Committee that the Department of Commerce has actively supported the 
implementation of the TPA and continues to work with the CTP to ensure 
that the objectives of the Act can be met.
    To date, Commerce has:

  <bullet> Appointed the initial CTP Board of Directors and re-
        appointed three Board members whose term expired in September 
        for a second term;

  <bullet> Approved the CTP's FY2011 objectives, and Commerce is 
        currently working with the CTP as the CTP revises and resubmits 
        the FY2012 objectives for approval by the Secretary of 
        Commerce, in consultation with the Secretaries of State and 
        Homeland Security;

  <bullet> Worked with the CTP to develop guidelines, benchmarks, and 
        standard operating procedures for the ``in-kind'' matching 
        contributions, which the act establishes as a precondition for 
        receiving Federal funds in FY 2012-2015;

  <bullet> Worked closely with the CTP and the Treasury Department to 
        put in place administrative processes to facilitate the 
        disbursement of funds to the CTP from the Travel Promotion Fund 
        at Treasury; and

  <bullet> Worked with other Federal agencies to ensure that our agency 
        counterparts are apprised of the CTP's progress and collaborate 
        on ways that we can all connect to the new international travel 
        promotion campaign.

    Commerce will continue to work with the CTP on a regular basis to 
support its efforts and monitor its progress in attracting more 
international visitors to the United States and successfully 
implementing the TPA.

Travel Facilitation Under the TPA
    Our work under the TPA is not limited to working with the CTP. As 
provided in the Act, the Department of Commerce, through its 
International Trade Administration, is closely collaborating with the 
Departments of State and Homeland Security to improve the experience of 
travelers entering the United States. Through the interagency, cabinet-
level Tourism Policy Council, chaired by the Secretary of Commerce, we 
have partnered with State and DHS to disseminate information regarding 
U.S. entry requirements, including the implementation of the Electronic 
System for Travel Authorization (ESTA) fee, and to explore ways to 
facilitate the entry process for foreign visitors into the United 
States. The Tourism Policy Council has responded directly to, and is 
actively engaged in, these and other concerns raised by the private 
sector Travel and Tourism Advisory Board.
    In this context, the Department of Commerce is working with State, 
DHS, and the White House to identify and more effectively communicate 
the progress that the Administration is making to address concerns of 
the private sector. For example, wait times for visa appointments have 
been significantly reduced in key markets such as China, as you will 
hear from David Donahue, Deputy Assistant Secretary for Visa Services 
at State. In addition, the number of travelers enrolled in trusted or 
known traveler programs managed by DHS has increased, which we 
understand is enabling Customs and Border Protection officers to more 
effectively and efficiently process visitors at U.S. ports of entry.
    We are also working with the private sector Travel and Tourism 
Advisory Board to understand industry concerns, and with our 
interagency partners to develop a culture of interagency collaboration 
and continual improvement, to support the success of the CTP and to 
achieve the objective of promoting international travel to the United 
States.

Research
    The Department of Commerce provides the official U.S. government 
data on travel and tourism. As you know, the TPA significantly 
increased the Department's responsibilities for data collection and 
research. This is critical to documenting the effect of travel and 
tourism on the economy and to job creation, as well as to developing 
promotional strategies essential to the success of the TPA. We will 
continue to provide essential data on key markets, and our statistical 
system will eventually help measure the value of the CTP's efforts to 
increase travel and tourism and the resulting effect on the U.S. 
economy.

Conclusion
    The Department looks forward to continuing our work with the CTP 
and key agencies, such as State and DHS, to achieve the goals of the 
TPA. We will continue to coordinate through the Tourism Policy Council, 
and with the White House, to improve the U.S. entry process and to 
communicate U.S. travel requirements more effectively. This work is a 
top priority for the Administration and through the Tourism Policy 
Council, we will ensure it receives cabinet-level attention.
    The potential of the TPA to create new opportunities for U.S. 
travel and tourism exports is critical in supporting the President's 
National Export Initiative and achieving the President's job creation 
objectives. This is an exciting time for the United States to engage in 
the global marketplace and, with the tools provided by the TPA, the 
United States is better able to proactively compete for international 
visitors. After all, more international visitors to the United States 
means more people eating in our restaurants, staying in our hotels, 
shopping in our malls, visiting our attractions and learning about our 
values and culture.
    Chairwoman Klobuchar, Ranking Member Blunt, and distinguished 
members of the Subcommittee, thank you again for inviting me to testify 
today. I will be happy to answer any questions that you have.

    Senator Klobuchar. Thank you very much.
    Mr. Donahue?

 STATEMENT OF DAVID T. DONAHUE, DEPUTY ASSISTANT SECRETARY FOR 
            VISA SERVICES, U.S. DEPARTMENT OF STATE

    Mr. Donahue. Good afternoon, Chairman Klobuchar, Ranking 
Member Blunt and distinguished members of the Subcommittee.
    Today, my testimony will focus on what the Department of 
State has accomplished in the past 7 months since my last 
appearance before your Subcommittee. I am pleased to report 
that we made significant progress to facilitate legitimate 
travel while continuing to protect our borders and the safety 
of our fellow citizens. I want to thank you and your staff 
members for all the support you've given us in this process.
    In Fiscal Year 2011, consular officers issued more than 7.5 
million U.S. visas, an increase of 16 percent over the previous 
year. The largest growth in travel comes from the world's 
fastest emerging economies where we have seen demand for U.S. 
visas increase in a dramatic pace.
    In Fiscal Year 2011, we processed more than a million visas 
in China--that's the first time we've crossed the million mark 
there--a 34 percent increase, and more than 800,000 visas in 
Brazil, a 42 percent increase over the previous fiscal year. 
Visa interview wait times throughout China are under 15 days at 
this time.
    We are adding 98 visa adjudicators, split evenly between 
China and Brazil in the next year. A number of new adjudicators 
are being hired through a pilot limited non-career appointment 
program that targets applicants who already speak Chinese or 
Portuguese. We expect the first group to arrive at post in 
China and Brazil in the spring of 2012 with a second group 
following in the summer of 2012.
    In the meantime, we are sending temporary duty officers to 
these posts to keep the wait times as low as possible. Brazil 
continues to be a challenge but our recent successes in Brazil 
include a 15 percent reduction in appointment backlog in less 
than 2 months. Interview wait times, as mentioned, across 
Brazil are under 90 days and we are working to keep them 
falling.
    We achieved a 50 percent increase in the number of 
interviews per day in Rio de Janeiro and Sao Paulo through 
extended interview hours and other methods. In Rio de Janeiro, 
we're now doing 2,000 interviews a day and in Sao Paulo, 3,000 
a day.
    In October 2011, we adjudicated 67 percent more visas 
throughout Brazil compared to October 2010. That was 87,500 
visas in Brazil alone during last month.
    In China and Brazil, we are committed to increase our 
capacity to adjudicate 40 percent more visa applications in 
Fiscal Year 2012. We are adding nearly 60 windows across our 
China posts.
    We are assessing the feasibility of establishing more visa-
issuing locations in both countries. In September, a Department 
team conducted a 2-week site survey in Brazil and another team 
visited China this month. We are adding 17 new windows in 
Mumbai, India, this month.
    In conclusion, let me stress that our top priority in visa 
adjudication is national security. We are working closely with 
the Department of Homeland Security to determine if the 
enhanced screening introduced since 9/11 may provide 
opportunities to interview fewer applicants in certain very 
limited categories without compromising border security 
requirements. We hope to brief Congress on the outcome of these 
discussions soon.
    We believe that U.S. interest in legitimate travel, trade, 
promotion and educational exchange do not conflict with our 
border security mission. The issuance and refusal of visas has 
a direct impact on our foreign relations as well as our 
economy.
    The Department of State is in a position to anticipate and 
weigh those factors working with our Commerce Department while 
ensuring border security as our first priority.
    We will staff up, build and innovate to ensure that America 
continues to be a secure and welcoming country. I have 
submitted written testimony for the record and I'm pleased to 
answer your questions.
    [The prepared statement of Mr. Donahue follows:]

Prepared Statement of David T. Donahue, Deputy Assistant Secretary for 
                Visa Services, U.S. Department of State

    Chairwoman Klobuchar, Ranking Member Blunt, and distinguished 
Members of the Subcommittee, it is a distinct honor to appear before 
you again to share the accomplishments of my colleagues in the Bureau 
of Consular Affairs, and our efforts to facilitate the legitimate 
travel of millions of tourists, business people, students, and other 
visitors to the United States.

Increasing Worldwide Demand for U.S. Visas
    We at the Department of State are dedicated to the protection of 
our borders, and have no higher priority than the safety of our fellow 
citizens. At the same time, we are committed to facilitating legitimate 
travel, and providing prompt and courteous service. For the Bureau of 
Consular Affairs, the challenge is to meet the increasing worldwide 
demand for U.S. visas without compromising the security of our Nation's 
borders. I am pleased to testify that we are meeting this challenge 
head on.
    Consular officers adjudicated 8.8 million visa applications and 
issued more than 7.5 million U.S. visas in Fiscal Year 2011, an 
increase in issuances of more than 16 percent over the previous year, 
when 6.4 million visas were issued. We have experienced tremendous 
increases in demand for visas in some of the world's fastest-growing 
economies. We are issuing as many visas as we did in 2000, even though 
nine more countries have joined the Visa Waiver Program since then.
    According to the Department of Commerce, last year international 
visitors contributed $134 billion to the U.S. economy, supporting more 
than a million jobs. More international travel means more spending on 
airlines, tours, hotels, services, and export purchases, all of which 
mean more American jobs. Not only do international tourists, business 
visitors, and students boost our economy, but these visitors also leave 
our country with a better understanding of American culture and values.
    The greatest growth in travel comes from the world's fastest 
emerging economies, where we have seen demand for U.S. visas increase 
at a dramatic pace. We are taking steps to meet this growing demand. I 
would like to update you on the efforts we have undertaken since my 
last appearance before the Subcommittee.

The role of security has not diminished
    Security remains our primary mission, since every visa decision is 
a national security decision. We have an intensive visa screening 
process incorporating personal interviews with multiple biographic and 
biometric checks, all supported by a sophisticated global information 
technology network, which shares data with other government agencies. 
We continue to work with the law enforcement and intelligence 
communities to ensure that our officers have the latest information on 
whether an applicant poses a threat. Around the world, at 222 visa-
issuing embassies and consulates, a highly-trained corps of consular 
officers and support staff process millions of visa applications each 
year, facilitating legitimate travel while protecting our borders.
    We instruct our staff that their highest priority must be to 
protect the United States and its citizens. The officers are also 
trained to be courteous, respectful, knowledgeable, and efficient. We 
ensure that these principles are core tenets of our training regimen 
for new consular officers and visa adjudicators. Our visa adjudication 
courses feature in-depth interviewing and name-checking technique 
training, fraud prevention, and the use of automated systems. 
Throughout their careers, consular officers receive continuing 
instruction in all of these disciplines, to ensure they integrate the 
latest regulations and technologies into their visa adjudication 
decisions. Our aim is to keep the visa process efficient, simple and 
secure for all those who wish to visit our great nation.

Meeting Demand, Especially in Emerging Economies
    The Department of State is keeping pace with growing demand for 
visas, and continues to dedicate more personnel and resources to visa 
adjudication, focusing on embassies and consulates with the greatest 
resource needs. Specifically, we are committed to increasing visa 
adjudications by 40 percent in FY 2012 in both China and Brazil, two 
countries where we have seen the greatest increase in visa demand.

  <bullet> The Department is adding 98 visa adjudicators this year and 
        next in China and Brazil. A number of these new adjudicators 
        are being hired through a pilot program that targets applicants 
        who already speak Mandarin or Portuguese. We expect the first 
        group of these special hires to arrive at posts in China and 
        Brazil in the spring of 2012. A second group will follow in 
        summer 2012.

  <bullet> Some posts in China and Brazil are operating double shifts 
        to maximize use of facilities. Working bilaterally with host 
        governments, the Department is also working to expand and 
        improve our visa-processing facilities to allow for even more 
        applicant interviews.

  <bullet> The Department is using many different tools to expand 
        capacity, including advanced technology to maximize efficiency 
        and improve security-related screening. By consolidating some 
        of the non-security-related consular functions, we are 
        increasing capacity at our embassies and consulates.

    While we strive for maximum efficiency, our activity is unique and 
cannot be compared fairly with a standard ``business model.'' In Fiscal 
Year 2011, we processed more than a million visas in China, and more 
than 800,000 visas in Brazil. This represented a 34 percent increase in 
China over the previous Fiscal Year, and a 42 percent increase in 
Brazil during the same period, an accomplishment that would be hard to 
match even in the private sector. We issue visas to almost 90 percent 
of Chinese applicants, and to over 96 percent of Brazilian applicants.
    Since 2005, consular officer staffing has doubled in Brazil. Since 
Fiscal Year 2008, we have sent more than 50 officers to Brazil on 
temporary assignments to meet short-term staffing needs, providing an 
additional 2,000 days of service. Our Brazil consular team has reduced 
the backlog of appointments by 15 percent in less than two months. Our 
consulate in Sao Paulo began extended interview hours in August, and 
other Brazilian posts are expected to follow. Sao Paulo increased from 
2000 interviews per day to 3000 per day. The U.S. Consulate General in 
Rio increased from 1000 interviews per day to 2000 interviews per day. 
We hosted two ``Super Saturday'' events at consular posts across 
Brazil, adjudicating almost 8,000 visa applications in those two days. 
In October 2011, our consular offices in Brasilia, Recife, Rio, and Sao 
Paulo adjudicated 87,500 visas, an increase of 67 percent over October, 
2010.
    We are working to expand and remodel our consular facilities as 
permitted by the Chinese and Brazilian governments, so that we can 
interview more visa applicants on a daily basis. We are expanding our 
interviewing capacity by adding 22 new service windows in Guangzhou, 20 
new windows in Shanghai, eight new windows in Chengdu and eight new 
windows in Beijing. For India, we are adding 17 new windows in Mumbai.
    In addition, we are assessing the feasibility of establishing more 
visa-issuing locations in Brazil and China. In September, a team from 
the Department participated in a two-week site survey to improve and 
expand existing consular facilities in Brazil, and another team is in 
China this month.
    The Department created the Limited Non-career Appointment (LNA) 
program to hire visa adjudicators with essential language skills in 
Mandarin or Portuguese. LNA hires meet the strict qualifications of 
Foreign Service Officers and can speak Mandarin or Portuguese at a 
level equivalent to other adjudicators. They are appointed for one-year 
periods for no more than five consecutive years, and would have the 
same privileges and responsibilities as other consular adjudicators. We 
plan to hire over 50 LNAs and Professional Adjudication Specialists 
(PAS) over the next two years. Each 10 LNA/PAS represents approximately 
150,000 more visas adjudicated per year.
    We also prioritize groups of travelers, such as students and 
business visitors. Wait times for student visa interview appointments 
worldwide are less than 15 days. We prioritize student visa 
appointments because of the tremendous intellectual, social, and 
economic benefits foreign students provide to the U.S. economy. 
According to the Department of Commerce, international students 
contributed nearly $20 billion to the U.S. economy during the 2009-2010 
academic year. All U.S. embassies and consulates have established 
procedures to expedite appointments for business travelers. U.S. 
officials work closely with American Chambers of Commerce in more than 
100 countries to streamline the visa process for business travelers.
    We use advanced technology to maximize efficiency and improve 
security-related screening. Our worldwide Global Support Strategy (GSS) 
contract, already in place in several countries, moves off-site some 
non-security-related consular functions in order to create additional 
capacity. GSS makes visa interview appointment scheduling transparent 
and consistent, and eliminates the user-pays scheduling programs in 
existence in many countries.
    We have worked to reduce or eliminate paper from all aspects of 
visa processing, winning awards for our green initiatives. Our 
nonimmigrant visa application is now completed and submitted online, 
and we are piloting a web-based immigrant visa application.

Interviews and Reciprocity
    The Immigration and Nationality Act requires our consular officers 
to interview in person all first-time visa applicants aged 14 through 
79, with interview waivers possible for diplomatic and official 
applicants from foreign governments and, in limited circumstances, some 
repeat applicants.
    We have begun the process of reviewing the criteria for visa 
interviews to determine whether efficiencies may be achieved that could 
allow us to reduce wait times and better serve visa applicants. We are 
working closely with the Department of Homeland Security (DHS) to 
identify and evaluate options that remain consistent with our shared 
objectives of facilitating legitimate travel while combating fraud and 
safeguarding the security of the United States. If we are successful in 
developing proposals that meet these goals, we will discuss our 
findings with Congress.
    The law also requires us to set visa validity based on the validity 
of visas issued to U.S. citizens. Right now, the Chinese only issue 12-
month visas, at the most, to Americans. U.S. Ambassador to China Locke 
regularly addresses the issue of visa validity with the Chinese 
government, with the goal of extending visa validity for American 
travelers from 12 months to two or more years, so that we can 
reciprocate and issue longer validity visas for Chinese tourists and 
business travelers.
    The Department does not act alone when it comes to decisions about 
visa validity; we must consult with DHS prior to increasing any period 
of visa validity.
    In addition to granting reciprocal treatment to U.S. citizens 
seeking visas to visit China, we would like to see the Chinese 
government make significant progress in issuing travel documentation to 
thousands of Chinese nationals in the United States under final removal 
orders.
    Finally, we are working with our U.S. Government partners to assist 
DHS as they consider additional countries for membership in the Visa 
Waiver Program (VWP). The specific requirements for VWP membership are 
set forth in law and are quite strict; these statutory requirements 
help to make VWP the secure program that it is.

Conclusion
    We believe that U.S. interests in legitimate travel, trade 
promotion, and educational exchange are not in conflict with our border 
security agenda, but rather further that agenda in the long term.
    Visa adjudication requires good judgment, insight into cultural 
practices, and knowledge of immigration law. Visa adjudication is not a 
mechanized process. It can never become a mechanized process, because 
we are protecting the safety of our citizens, legal permanent 
residents, and those who visit our country.
    Our global presence, foreign policy mission, and personnel 
structure give us singular advantages in executing the visa function 
throughout the world. Our authorities and responsibilities enable us to 
provide a global perspective to the visa process and its impact on U.S. 
national interests. The issuance and refusal of visas has a direct 
impact on our foreign relations, as well as our economy. The Department 
of State is in a position to anticipate and weigh all those factors, 
while ensuring border security as our first priority. We will continue 
to staff up, build and innovate to ensure that America continues to be 
a secure and welcoming country.
    This concludes my testimony today. I will be pleased to take your 
questions.

    Senator Klobuchar. Well, thank you to both of you.
    I do want to say that we have had a lot of these hearings 
over the years since I took over and this was the most positive 
in terms of specific developments. So we're very happy about 
that.
    And we have been joined by the Chairman of the Commerce 
Committee, Senator Rockefeller, and hope to hear a few words 
from him before we move on to questions.
    The Chairman. Thirty seconds.
    Senator Klobuchar. Whatever you need.

             STATEMENT OF JOHN D. ROCKEFELLER, IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. I apologize. I was late. I guess that was 
evident.
    [Laughter.]
    The Chairman. I've always loved tourism, and I was a 
Governor of West Virginia for 8 years and that was sort of the 
most exciting because a lot of people would say, ``no, we don't 
want to come do business there'' back then. It's different now.
    But it's partly different because of tourism because for 
some reason we've got a lot of Japanese tourists and we had a 
lot of people from overseas, and West Virginia is not far from 
Washington so they would wander in. They kind of like what they 
see and it's paid off in different ways.
    But when you think about it, if this is really true, Madam 
Chair, that one out of every nine Americans is employed one way 
or another by tourism--I mean, it's just absolutely 
extraordinary.
    Senator Klobuchar. It's true.
    The Chairman. It makes health care look trivial. I take 
that back. Health care is not trivial.
    [Laughter.]
    The Chairman. But I mean, 44,000 jobs in our state depend 
upon tourism. It brings in over $4 billion a year. That's huge 
for us. And what I like about it the most is that people, I 
think, discover more who you are and what you're like as a 
people through tourism when they don't come with a specific 
purpose but when they're traveling, and what we find in West 
Virginia is that a lot of, let's say, people from Canada or 
people from other places they'll come and they'll keep coming.
    They'll come to the same state park. And we want to say 
well, why are you coming to the same state park but, of course, 
you don't say that because you're glad they're there.
    But it's sort of the habit, and I think it's the warmth of 
the reception they get, and that's not something which is 
automatic, I mean, folks like yourself. I mean, you have to 
work at this very, very hard.
    People have to get accustomed to it. People who are 
starting up restaurants have to know how to work with people 
whose language they don't speak perhaps and they need to know 
things to put out the welcome mat and make people want to come 
back.
    I think it's about the healthiest thing that one can do in 
the whole business of job creation because it gives people 
enjoyment, and in our case it led to an enormous number, in the 
case of Japan, of industries that began to come over, and we 
have something like 22 or 23 industries from Japan in West 
Virginia.
    That may not be much in a big state like Minnesota but it's 
humongous in a small state like West Virginia. And word 
travels. People find out what you're like. If they like it, 
that word travels, then it gets mixed up in the whole business 
of industrial development, which is important.
    So I'm always proud of you, Madam Chair, for what you do 
and Minnesota just has a big fat advantage in terms of beauty, 
a thousand lakes, and no mosquitoes. That's what I'm told.
    Senator Klobuchar. Well, we don't have Harpers Ferry. 
That's yours.
    The Chairman. Anyway, that's my statement.
    [The prepared statement of The Chairman follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia

    Thanks to all our witnesses for participating in this important 
discussion about travel and how it affects our economy.
    I want to start by complimenting Senator Klobuchar for her focus on 
this issue. The timing couldn't be better. With the launch of Brand 
USA, a public-private partnership that is marketing travel to America, 
our country will finally start aggressively competing for international 
travelers.
    The goal is to create and support jobs that will boost the U.S. 
economy at a time when our country so desperately needs visitors and 
the revenue they bring. This will result in more international 
travelers coming to places like West Virginia and Minnesota and 
everywhere in between.
    Everyone here knows firsthand, that travel and tourism are critical 
to our economy. Hard-working Americans, whether in hotels, restaurants 
and shops, or as our river guides or tour operators, all depend on a 
thriving travel industry. Tourists contribute $750 billion a year to 
our economy, and provide jobs for approximately one in nine Americans.
    That's why we're here today, to continue supporting the travel 
industry. In addition to new job opportunities and a stronger economy, 
bringing in overseas visitors gives us a chance to showcase our great 
nation.
    As many people in the DC area know, West Virginia has long been 
known as a ``wild and wonderful'' destination. Places like Cooper's 
Rock State Forest or Babcock State Park offer breathtaking views of 
fall foliage. And, when that first big snow falls, thousands flock to 
our ski runs.
    West Virginia's economy relies on tourism. 44,000 jobs in our state 
depend on it and the industry contributes $4 billion a year to the 
state economy.
    Part of the reason so many people visit West Virginia is that 
they've seen the advertising campaigns: ``Where is Your West Virginia'' 
and ``Experience West Virginia.'' The Division of Tourism has promoted 
West Virginia for years--it's something that I championed as Governor--
and that push continues today. Our advertisements are everywhere from 
DC metro stations to social networking sites because we realize how 
much is at stake.
    This is a good lesson for Brand USA. As it markets America, it 
should take note of what works elsewhere. West Virginia's marketing 
campaign constantly evolves to reach more people and to make an impact 
on them in a meaningful way.
    Brand USA will need to evolve as well. Many of our competitor 
countries already have sophisticated marketing campaigns in place and 
will undoubtedly react to where and how Brand USA chooses to invest. 
The competition that goes on between countries is similar to the 
competition that goes on between states every day. Before large amounts 
of money are spent to reinvent the wheel, I would expect Brand USA to 
seek the advice of states with successful tourism promotion experience.
    As with any global initiative, the eyes of the world are upon us 
and it's important that we succeed in making America an attractive 
destination to travelers everywhere. At a time when money is tight for 
most people, I hope we are creative and tactical in promoting West 
Virginia and America as the wonderfully diverse travel destinations 
they are. I look forward to hearing from the witnesses today on this 
subject, and I'd like to thank them again for joining today's 
discussion.

    Senator Klobuchar. All right. Well, very good. Thank you so 
much.
    I'm going to turn over to Senator Blunt for the first 
questions.
    Senator Blunt. Good. Good. Chairman, thanks for joining us. 
It's good to have you at this hearing and your understanding of 
tourism helps our Subcommittee a lot. So thanks for that.
    Mr. Donahue, you mentioned Homeland Security and things you 
were looking at regarding enhanced screening and I'd be 
interested in that, and I'd also be interested in your view of 
the continued importance of the individual interview in 
countries where people need a visa.
    Mr. Donahue. Thank you for the question, Senator.
    First of all, I think visa interviews are key to our 
national security. We are very proud. We did over 9 million 
interviews last year. We think we do a good job of that. It 
helps us assess the person.
    One of the key things we're doing in an interview is 
determining the intention, which is a very difficult thing, as 
you can imagine, of the applicant. Are they coming for the 
reasons they say they're coming or do they have other reasons 
for coming? So we think it's a very valuable tool.
    We do believe that there may be categories that we are 
discussing with the Department of Homeland Security and we've 
discussed with members of Congress that maybe do not need to 
have an interview.
    A good example: there's a tradition in Brazil where when 
you're 15 if you have the means your family sends you and your 
friends up to Disney World for a quinceanera celebration. And 
so when these groups are coming we have a room full of 15-year-
old girls that we have to interview one by one because the law 
requires us to do that.
    Those interviews could go to a family, a head of a family 
of five who is bringing their family to the United States. They 
could go to a businessman wanting to come to buy a tractor, all 
kinds of different things.
    And while we can expand, keeping up we want more and more 
people to come, keeping up the--if we can find areas like that 
where we feel that an interview would not necessarily enhance 
the security we think there are some opportunities.
    Another area is in China. Currently, the reciprocity is 1 
year because that's what China gives to Americans and the law 
requires that reciprocity be the same for Americans that the 
other country, that we would give to the other country's 
nationals.
    That means that every year a Chinese student or a Chinese 
visitor has to reapply for a visa and they have to come in in-
person if it's been more than a year since their last interview 
expired.
    We think that since most countries have much longer 
reciprocity and that this is really a bilateral issue having to 
do with China's view of their own national security that this 
would be an area that Indians, for instance, receive 10-year 
visas.
    Brazilians receive ten-year visas. The law requires that we 
only give one-year visas but do we need to see them again for 
an interview if they come in two and a half years later--if 
their application comes in.
    We certainly would call them in if there was anything in 
their past travel to the United States or anything in their new 
application that made us wonder whether they were going to 
continue to use that visa correctly. But if they've used the 
visa correctly we already have their biometrics. We've already 
interviewed them.
    We know what their travel pattern was in the United States, 
thanks to our colleagues at the Department of Homeland 
Security, and we think that there are cases, maybe not all of 
them but there are cases where we could not--we could waive the 
interview without detracting from national security.
    Senator Blunt. And you think that takes legislation?
    Mr. Donahue. Legislation would make it clearest. We think 
that would be the clearest option.
    Senator Blunt. We have that in the bill that Senator 
Klobuchar and I----
    Mr. Donahue. We know.
    Senator Blunt.--are sponsoring. It would give you a four-
year window.
    Mr. Donahue. That would be perfect.
    Senator Blunt. You wouldn't have to have that interview and 
legislation would help. Possibly, you could do that without 
legislation? You could do that internally?
    Mr. Donahue. It's possible but there is guidance in the 
Immigration Nationality Act. So legislation would make it much 
clearer and would, of course, make it easier for us.
    Senator Blunt. Well, we're trying to give you some guidance 
on that.
    Mr. Hyatt, on Brazil and China we've had lots of discussion 
of those two countries because of the number of people that 
want to come. How far in advance can you predict something like 
that in the Commerce Department? I know you watch travel 
patterns.
    Did you see the Brazil and China thing coming and my 
question would be what do you--where do you think the next 
countries are where there's going to be just a clearly growing 
demand?
    Mr. Hyatt. We're predicting at least 5 years out into the 
future and have a rigorous quantitative model looking at a 
variety of economic factors, connecting them to outbound travel 
patterns in those markets.
    I'm thinking about the five countries that we're predicting 
over the next 5 years. China, Brazil, Russia, Venezuela and 
Australia are the five countries that we predict will have the 
highest growth rates out over the next 5 years.
    I could go back and determine how well we predicted the 
growth in China but that's at least where we're forecasting the 
highest growth.
    Senator Blunt. And you share that information with----
    Mr. Hyatt. We do. We do.
    Senator Blunt. With State. Mm-hmm.
    Mr. Hyatt. And they use it to--yes, to predict some of the 
capacity that they expect to need.
    Senator Blunt. And my last question, Mr. Donahue, are you 
looking at those three countries that were not on the Brazil--
the after Brazil and China and thinking about what you need to 
do to prepare for that?
    Mr. Donahue. We certainly are. We just recently agreed to 
longer reciprocity in Russia in preparation for what we hope 
will be more Russian visitors. Venezuela offers a very 
difficult problem because of our relationships.
    We have limited staffing there and so we do have a very 
long wait time there that we cannot address and certainly is a 
country where we want to interview most of the applicants. The 
third one was----
    Senator Blunt. The third one was Australia.
    Mr. Donahue. Australia, and Australia is a visa waiver 
country.
    Senator Blunt. Right. Thank you.
    Senator Klobuchar. Very good.
    Senator Begich?
    Senator Begich. Thank you, Madam Chair, and thank you all 
very much for being here.
    Mr. Donahue, can you just go over one quick--you had two 
data points and I just want to make sure I had them right. 
Brazil has increased over the last year. What was the percent?
    Mr. Donahue. Over the last year it's increased 42 percent.
    Senator Begich. And China was----
    Mr. Donahue. Thirty-four percent.
    Senator Begich. And in volume of travelers, what is that? 
Do you know that raw number? And if not, can you get that to 
me?
    Mr. Donahue. Yes, I think it's--yes, I can get that for 
you. We'll get it for you.
    Senator Begich. If you can get that just so I can match 
those up.
    Let me ask you, if I can. I know you have--in your written 
testimony you had an initiative that you all are working on 
called the limited non-career appointment that--can you tell me 
how that's going and that is bringing back--well, you know it 
better than I do, helping with backlogs and bringing folks back 
for limited times for these appointments.
    Can you tell me how that's going and what if any challenges 
there are with it?
    Mr. Donahue. It's quite challenging. It's progressing well, 
though. We put out a offer in the USA Jobs several months ago. 
We had a large response to it. But, again, we want these 
officers to have the same qualifications as our Foreign Service 
officers who are doing visa interviews.
    So we had a very strict criteria including the language 
requirements for these applicants.
    Senator Begich. If I can interrupt you. So when you had the 
language requirements you had specific areas you wanted them to 
go to and that was how you advertised it?
    Mr. Donahue. Right. The first program, it was just for 
Portuguese and Mandarin Chinese speakers.
    Senator Begich. Got you. OK.
    Mr. Donahue. So we tested them and we've tested a number of 
them. We were hoping to have 20 out of--I think there was 800 
that actually responded to that USA Jobs posting and we think 
we'll net about 20 or 30 out of that number.
    We hope to open a class of 20 in January. Because they 
don't need language, they will have the training including all 
of the consular law requirements and we hope to have them out 
in the field in March. And then another group--we did another 
USA Jobs right after that.
    And we can use the same program for other speakers. For 
instance, if Russia is the next tourist group that will be 
coming and we need extra officers in Russia that would--we 
would be able to do the--use the same pattern now that we put 
together the administrative part of this program.
    Senator Begich. Is there any--I'm assuming there are some 
cost savings because of the way you're utilizing them or is it 
pretty much the same cost as what you would----
    Mr. Donahue. The costs are very similar because they 
received the same benefits that our officers would receive. We 
save, of course, on the language training. That's the biggest 
savings that we have, and they will only be employed for 5 
years maximum, 1-year appointments for 5 years.
    Senator Begich. Is there anything in the budget end of your 
work that's limiting how many you can put online or is it just 
the fact that it's finding the qualified people that's limiting 
the amount of people you can put online?
    Mr. Donahue. For this particular program, it is funded from 
visa fees. Obviously, the more people you put out there the 
more administrative support people you need which are not paid 
out of visa fees.
    So the General Services staff at the embassy, the overall 
infrastructure, that's in the field. So we do--it's very 
important that we, the State Department, receive its full 
budget.
    Senator Begich. Should the support services be paid by the 
visa fees?
    Mr. Donahue. We pay some of them but some of them are not 
within--for instance, some of the support services are outside 
of the exact requirements or they're universal for the entire 
mission.
    Senator Begich. Very good. Thank you very much.
    Let me--Mr. Hyatt, if I can ask you just a couple of 
questions. You know, the Travel Promotion Act, one of the 
responsibilities was for the Office of Travel and Tourism 
Industries within the Department of Commerce to do research in 
connection with international travel and so forth.
    Can you give me a sense of what the Commerce Department is 
doing in that arena? And you've indicated, obviously, areas 
that you are already kind of projecting out but what more are 
you doing to help promote international travel and research?
    Mr. Hyatt. The Act provides that the sample size for the 
research needs to increase from .2 or so percent to 1 percent, 
the basic reasoning being we need larger sample sizes to be 
able to get state-by-state data, and the Act is very clear that 
the benefits of the Travel Promotion Act need to benefit all 
states.
    So the primary focus of our research group now is figuring 
out exactly how to do that. We are looking at alternative ways 
to increase the sample size, how do we use technology to do 
that.
    We are looking at different ways to manage the sample size 
itself but we continue to work to try to find ways to meet the 
requirements of the Act which are to increase the sample size 
so we have more state-by-state data.
    Senator Begich. And I'm assuming with that process you're 
engaging state visitor industry folks and so will try to figure 
out how to accomplish that or is it more internally now?
    Mr. Hyatt. Both. We are both working internally. There is 
also a research committee within the Corporation for Travel 
Promotion with whom we're working. That committee includes 
research experts, members of the research team at the 
corporation and also our folks.
    Another area that we're exploring is different sources of 
funding for that--are there creative ways we might get the 
resources to execute the mandate of the Act.
    Senator Begich. Thank you very much. And as you progress 
would you mind keeping our office informed? It would be great 
to understand how you're achieving that.
    Mr. Hyatt. Be delighted to.
    Senator Begich. Great. Thank you very much.
    Senator Klobuchar. Very good.
    Senator Rockefeller?
    The Chairman. Thank you.
    I'm interested in the categories of people that come, let's 
say, now at a time of enormous international economic we're-
all-one-world type of exchanges, professional groups, and what 
I would refer to as just plain tourists.
    For example, when I was younger I spent 4 summers and for 4 
years working for the American Friends Service Committee and I 
spent two summers in Russia and two summers in Japan, and it 
was a lot of hard work and debate and all kinds of things. But 
I wouldn't have counted myself as a tourist.
    I would have counted myself as a person who was there 
either as a student or a graduate student or something of that 
sort. Because a lot of people now come over because of the 
business of business and they're trying to find out.
    Some come to try to learn more about our business so they 
can take that back and do better there, and then a lot but 
probably a smaller percentage come simply because they want to 
find out what Americans are like.
    But within that question, there are two parts. One is that 
people want to go see the Statue of Liberty. They want to see 
the Minnesota Vikings. They want to see San Francisco.
    Senator Klobuchar. No matter what happens on Monday night 
games, they want to see them.
    The Chairman. They do and they should. But they come 
because of famous symbols and those famous symbols come to 
represent America like the Empire State Building or the large 
buildings all over the place, or they come because they're 
looking for a chance to travel around, talk with Americans, 
find out what they're like.
    Now, that was sort of the more old-fashioned tourist. Does 
that still exist and to what extent, if you can put any kind of 
a percentage between the various categories, come for business, 
government-to-government contacts, professional meetings, 
things of that sort--one category--and another is the tourist 
who comes for various reasons? Can you expand?
    Mr. Hyatt. Why don't you start?
    Mr. Donahue. I'll start but I'm going to disappoint you. 
What we like to do is we like to document people so that they 
can wake up in the morning and see a good ad and come for a 
vacation and then come the next week and buy a tractor or buy a 
turkey or whatever it is that their business is.
    So what we like to do, for instance, with Brazilians is 
give them a 10-year B-1, B-2 visa which is a business visa and 
a tourist visa. So we don't separate it by how they're coming. 
Department of Homeland Security may have those statistics and 
maybe some of the private industry.
    The Chairman. But there's a catch. People decide to come 
for a reason.
    Mr. Donahue. Right.
    The Chairman. And that reason may evolve and multiply----
    Mr. Donahue. That's right.
    The Chairman. When they get over here. But they come for a 
purpose.
    Mr. Donahue. Certainly in China tourism is a growing--we 
have a group leisure travel which is a growing phenomenon 
there--where large groups of Chinese are coming over on planned 
travel and they're trying--we're trying to expand that with 
China.
    It was a breakthrough by the Department of Commerce a 
couple of years ago when they signed the agreement and that 
is--that is helping. But it's in every area. We just--we're 
celebrating--this week we're celebrating national--
International Education Week and we had, again, record number 
of students coming to the United States for student and 
exchange, as student and exchange visitors. So it's every 
category.
    The Chairman. They count. If you----
    Mr. Donahue. They don't--they count--they count as visas. 
They get visas, yes.
    The Chairman. Yes, but I understand the visa part. That 
gets them in. But the motivation is that they come here because 
they want to do something.
    Maybe they want to study, you know, physics and they stay 
here for several years to do so. I would count that as a 
tourist, I suppose. But do you understand what I'm trying to 
say?
    Mr. Donahue. No, I understand. We don't track it that way.
    The Chairman. Because they want to learn more about our 
country as opposed to a more professional ``I want to know more 
about this widget,'' I want to know more about what they do 
with defense or----
    Mr. Donahue. Right.
    The Chairman. I want to go see famous parks.
    Mr. Donahue. And we see the wide variety. I don't know if 
you have any statistics on that.
    Mr. Hyatt. Well, I don't have them offhand but in our 
airlines survey we do gather that kind of information--what was 
the purpose of the visit, what did you do during the trip--and 
I think we could--I'd be happy to go back and see what 
information we have on purpose of trip, how those individuals 
are being segmented.
    The Chairman. I would like to know that.
    Mr. Hyatt. Yes.
    The Chairman. Thank you.
    [The information requested follows:]

    [U.S. Department of Commerce Response to Chairman Rockefeller 
Inquiry]
    The Office of Travel & Tourism Industries has been surveying 
international air travelers to the United States since 1983. Within the 
survey we ask over 30 pieces of information on the international 
visitors. One of them is purpose of trip. We ask the purpose of trip 
question two ways. One is to ask their main purpose of trip and then we 
ask if they had any others.
    In 2010, of the 34,000 plus overseas travelers surveyed, 54 percent 
stated their main purpose of trip was leisure/recreation/holiday; 20 
percent stated they were here to visit friends and relatives; 18 
percent were here for business/professional reasons; four percent 
visited for a convention/conference; three percent were here for study/
teaching, and there were three other purposes asked in the question 
although all were under one percent. To see the actual survey 
instrument, go to: http://www.tinet.ita.doc.gov/pdf/
SIAT_Questionnaire.pdf.
    Another useful document is the overseas profile: http://
www.tinet.ita.doc.gov/out
reachpages/download_data_table/2010_Overseas_Visitor_Profile.pdf. The 
purpose of trip response is on page 5.
    In addition to providing purpose of trip for overseas travelers, we 
also have it for 11 regions and 22 countries. We report them on the 
OTTI website at: http://www.tinet.ita.doc.gov/outreachpages/
inbound.general_information.inbound_overview
.html.
    Once on the above page, if you scroll down to any of the countries 
or regions and click on the link on page 3 of the profiles, we have the 
purpose of trip breakouts.

    Senator Klobuchar. Very good. I have a few questions. Then 
we'll turn it over to Senator Thune from the great state of 
South Dakota, home of the Black Hills, the one place I got to 
go on vacation every single year.
    I've read about the success that the consulate in Brazil 
has had with the use of the extended weekend times, the weekend 
hours to process the visa applications, and I want to know how 
that's working.
    I think you call them super Saturday hours to help cut back 
on the backlog. What difference has that made and could it be 
utilized in other places? Mr. Donahue?
    Mr. Donahue. There's a long history of having super 
Saturdays around the world whenever we find that for whatever 
reason--it could be just that there's a couple of 4-day 
weekends in a row that get you a little bit behind in your 
schedule, and we've had several of them in Brazil.
    They are, as you can imagine, if you work your same staff 
seven--six days a week on a regular basis they have families, 
they have lives and they become tired of that. It's very 
grueling work doing interviews 5 days a week. You're doing 120, 
130 a day.
    So what you need to do that is you need more staff so that 
you can maybe split your week and so that you don't depend week 
after week for people working that extra day and that's 
something we are certainly looking at is the possibility as we 
get--as we bring in the L and A's, as we also are shifting 
people.
    We just opened a class November 1 with 50 students. All of 
those students from the--this is a regular Foreign Service 
class--all 50 of those students are going out to take up 
consular assignments as soon as they finish their training.
    So as we move more people in if, as we get excess capacity, 
we'll be able to do more of that. But we do it from time to 
time but it is very difficult with the same people.
    Senator Klobuchar. And have you been able to project out as 
you add those people, say, in Brazil? I was just remembering at 
the last hearing we showed the ``Good Morning, America'' 
version in Brazil of the people laying on the sidewalks waiting 
to get their visas.
    Mr. Donahue. Right.
    Senator Klobuchar. Have you projected how--where you'd like 
to be in terms of the wait time? You know, what did you say 
about China, you're down to 15 days? Was that it?
    Mr. Donahue. Fifteen days is the longest wait. I think 
that's in Beijing and I think it's 8 days in Shanghai. So we're 
very proud.
    Senator Klobuchar. I think it was like 90 in June or 
something, I read.
    Mr. Donahue. The most it was this summer was 60 days so it 
got a little bit longer. We have a confluence of both the 
summer and the students at the same time. We have the same--
that's a problem worldwide. But yes, we would like to see those 
days as low as possible.
    What we want is that someone who wants to go can go when 
they want to go. I think, you know, we--under 15 days, under 10 
days, we want them as short as possible. Lots of things come 
in--holidays, other things that you don't expect.
    But the idea is to have the capacity so that people can 
call up, make an appointment, come in at their convenience, 
make that trip.
    And, again, the longer reciprocity makes a big difference 
for multiple travels because, as I say, in Brazil you come 
once, that visa is good for 10 years and then you can even 
renew that by courier. You don't have to come in after that 
ever again.
    Senator Klobuchar. OK. You know, you talked with Senator 
Blunt about the current requirements for the in-person 
interview. I just wanted to go through that again. Aren't there 
classes of visitors who don't have in-person interviews today?
    Mr. Donahue. The only classes of applicants who don't have 
in-person interviews today are diplomats and also people whose 
visa has expired within a year and are applying in the same 
category at the same posting.
    Senator Klobuchar. So that's it. Everyone else has an 
interview?
    Mr. Donahue. Everyone else gets an interview and that's--
that was put in after 9/11.
    Senator Klobuchar. And where are the areas where you think 
that in-person interviews are most important?
    Mr. Donahue. I think, first of all, first-time applicants, 
I think. Not all first-time applicants but for many first-time 
applicants I think that's really important.
    First of all, we need to see them because we also observe--
we have an American--a cleared American always observes the 
collection of the biometrics and that's the real identification 
of our travelers. And so we think it's very important than an 
American watch that biometric be collected the very first time, 
and we do that every time.
    Then, I think, the other--certainly, if there's anything in 
the application that is--makes us wonder well, why is this 
person going, a lot has to do with what's this person--does it 
makes sense, does the travel that the person's pursuing make 
sense.
    And then, of course, we do--before the person ever comes in 
we do extensive background check against U.S. databases and if 
anything comes up that draws attention to that person we have 
that person come in for an interview regardless of whether 
they're eligible for a waiver or not.
    Senator Klobuchar. And do you think there's ways to more 
strategically target consular resources at the high-risk visa 
applicants who we really want to be screened through an in-
person interview?
    Mr. Donahue. Yes. I think that's--I think there is. I think 
I mentioned a couple of categories that we think would be--that 
are obvious right now. There may be other categories of 
applicants who we can determine from either their past travel, 
from the information we already have on them, from our 
knowledge of that country that this particular individual or 
this--these groups of individuals could be considered.
    In every case, we would do it--we would target those 
interviews so that we would not say that this whole group 
doesn't need an interview but that that group, the officer 
could look at the paperwork and say no, this is a person--they 
had been a student, they're going to be a student, they're in 
good standing, they're going to the University of Minnesota and 
they've been at a--you know, have been a great student there 
and we can tell this from SEVIS now.
    So that we know a lot about these applicants and do we 
really need to be interviewing this person a second time right 
in the middle of their 4 years education at the University of 
Minnesota.
    Senator Klobuchar. OK. Very good. Well, thank you. I have a 
few questions I'll put in writing about the agencies, Mr. 
Hyatt--how you're working with other agencies.
    But I know we want to get on to our second panel and also 
Senator Thune has some questions here. Thank you.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Madam Chairman, and thank you for 
visiting the Black Hills of South Dakota.
    Senator Klobuchar. Harney Peak.
    Senator Thune. I hope you will continue to do that, yes.
    Senator Klobuchar. Thanks.
    [Laughter.]
    Senator Thune. Let me direct this question to Mr. Hyatt, if 
I might.
    I grew up in the tourism business. My town in South Dakota 
now has about 500 people. I think it had about 800 when I was 
growing up except between June and August every summer in which 
it filled up--motels, restaurants, filling stations.
    I spent seven summers working in a restaurant mostly as a 
short-order cook. I had two brothers that worked at filling 
stations, another one that worked at the big Pioneer Auto Show 
which is our attraction in town, and my parents managed a motel 
for about 12 years.
    So I know how important tourism is to a state like South 
Dakota and increasingly international tourism too.
    You get more and more visitors who are coming, not just 
from the region and the country but around the world, and I'm 
sort of curious to know how much certain things impact. You 
know, there tends to be--it sort of follows the economic cycle.
    If you have good economies, bad economies people travel. In 
bad economies they don't, and this summer because of all the--
and some of it's dictated by weather. We had a lot of flooding 
this summer so that really impacted the travel business in my 
state.
    But I'm curious to know to what degree fuel prices do that. 
Yesterday, AAA reported the national average cost for regular 
gasoline was $3.40 a gallon.
    Last year at this time it was $2.89 a gallon, and with this 
instability we're seeing in the Middle East and North Africa 
oil prices are continuing to remain high, which in turn is 
going to affect everybody's pocketbooks and when they spend 
more at the gas pump they tend to spend less on other things.
    With regard to transportation costs for airlines, vehicles, 
trains, et cetera, could you speculate on the effect that 
higher fuel prices have on tourism in the United States and is 
there a direct correlation between price at the pump and the 
amount of travel that we see in this country?
    Mr. Hyatt. Thank you, Senator.
    Our tourism travel--our Tourism and Travel Advisory Board 
are private--our advisory board filled with private-sector 
members actually have prepared a document, a paper, on that 
very topic, on the relationship between fuel prices, energy 
costs and travel and tourism.
    So yes, there is that direct relation and I'd be happy to 
forward the report which is a very, very detailed, very 
analytically-based look at the connection between energy cost 
and travel.
    Senator Thune. Is it broken down geographically? I mean, do 
you have a--when they did this and----
    Mr. Hyatt. You know, I don't know the answer to that. I 
don't remember the report, whether it goes to that level of 
detail. Obviously, certain states with greater distances to 
drive would be more--the thinking would be it would be more 
impacted. I don't remember if the report does that.
    Senator Thune. OK. And did it kind of do like some 
sensitivity analysis with regard to how much when a price a 
gallon, let's say, of gas goes up 50 cents----
    Mr. Hyatt. There is some of that.
    Senator Thune. That percentage then of decline that you 
might see in a----
    Mr. Hyatt. There is some of that analysis in the report.
    Senator Thune. OK. I'd be very interested in seeing that.
    And that second question I guess I have, skipping on to a 
different issue but--and maybe this has been touched on. If it 
hasn't--if it has, forgive me.
    But, Mr. Donahue, this discussion about the visa waiver 
program and its success in promoting travel in the United 
States, I'm told that the countries participating in that are 
the largest source of international visitors, comprising about 
65 percent of all inbound travel to the United States, and I 
understand that DHS administers the program.
    I'm a little interested about what State's role is in that 
and what we are doing as a nation to actively encourage more 
countries to participate in the visa waiver program.
    Mr. Donahue. Thank you very much for the question, Senator.
    The State Department works very closely with the Department 
of Homeland Security on the visa waiver program and we're 
involved in one of the visa sharing agreements. We work with 
other agencies in negotiating one of the agreements that's 
required for those who want to enter.
    We also provide the statistics that help determine whether 
a country is eligible for the program. They have to have, 
according to the law, under 3 percent refusal rate and, of 
course, the refusal rate is our visa refusal rate. So we're 
involved from that point of view.
    And then the Secretary of State is responsible for 
nominating countries for consideration once they meet the 
threshold, the 3 percent threshold, and begin the process of 
meeting the other five or six requirements that are in law for 
the visa waiver program.
    So we're involved in doing that. We certainly provide a lot 
of information through our embassies to the countries on how to 
meet the requirements of the visa waiver program.
    We work very closely with the teams that come out from the 
different agencies, including the Department of Homeland 
Security, to negotiate these agreements and help the countries 
understand why signing these agreements and working with us on 
information sharing is in the mutual interest to both countries 
in securing our borders and ensuring that terrorist travel or 
criminal travel is inhibited throughout the world.
    So we think it's a very great program and, as you say, 65 
percent of people travel on that program. We saw a big increase 
in Korea when they went on the visa waiver program, although 
that's now leveled off. But it was a--the first year was a huge 
bump in Korean tourists.
    Senator Thune. Thank you, Madam Chair. Thank you.
    Senator Klobuchar. OK. Very good. Thank you, Senator Thune. 
And I'm going to put Senator Rockefeller's statement in the 
record.
    I want to thank our witnesses and thank also the Commerce 
Secretary as well as the Secretary of State for the work that's 
being done here and everyone that's doing the work on the front 
line. We know there's more to do. We really appreciate your 
efforts.
    Mr. Donahue. Thank you for your support.
    Mr. Hyatt. Thank you.
    Senator Klobuchar. Thank you, and while we bring the second 
panel up we're going to show a video actually from the 
Corporation for Travel Promotion, which is now doing business 
as Brand USA.
    This is the travel promotion campaign. It's not yet a 
commercial but it gives you a sense of some of what we're going 
to see. So if we could start with the video right now.
    [VIDEO PRESENTATION.]
    Senator Klobuchar. Very good. Oh, there we are. Good.
    [APPLAUSE.]
    Senator Klobuchar. We don't always have applause at a 
hearing so that's very exciting for us.
    Senator Blunt. I think almost never.
    Senator Klobuchar. Yes, never. I'll introduce all four of 
our witnesses in the next panel.
    First, Mr. Jim Evans, who is the CEO of Brand USA. We look 
forward to hearing from you. Mr. John Edman is the Director of 
Explore Minnesota Tourism, the official state tourism agency 
for Minnesota.
    I would note that he was appointed by Governor Jesse 
Ventura, then reappointed by Governor Pawlenty, then 
reappointed by Governor Dayton. So just like the people in the 
travel industry he is a true survivor. So thank you for that 
and all your good work.
    Mr. Jonathan Zuk--is it Zuk? Did I say it right?
    Mr. Zuk. Zuk is correct.
    Senator Klobuchar. Is the Vice Chairman of the Receptive 
Services Association of America as well as the President of 
Amadeo----
    Mr. Zuk. Amadeo.
    Senator Klobuchar. Amadeo. Amadeo Travel Solutions. And 
then finally, Mr. Jonathan Tisch is the Chairman and CEO of 
Loews Hotels and Chairman of the U.S. Travel Association 
forever. He founded it. So thank you very much.
    We will first start with Mr. Evans.

     STATEMENT OF JAMES P. EVANS, CHIEF EXECUTIVE OFFICER, 
                           BRAND USA

    Mr. Evans. Thank you, Madam Chair, Senator Blunt, esteemed 
members of the Subcommittee. It's a pleasure to meet with you 
today and to report on the progress of the Corporation for 
Travel Promotion, now doing business as Brand USA.
    Increasing international visitation to the United States is 
critical because it provides a stimulus without taxpayer 
burden. In 2010, travel and tourism exports totaled $134 
billion, which was 7 percent of U.S. exports.
    Travel and tourism industry supports 7.5 million American 
jobs of which 1.1 million are supported by international 
travelers. And with every 65 international travelers to the 
United States supporting one job, international visitation is a 
vital part of each of this nation's 435 Congressional 
districts.
    Yet, due in part to our lack of a coordinated international 
marketing program, the United States' share of international 
arrivals declined from 17 percent of the world travel market in 
2000 to 12 percent today.
    Oxford Analytica estimates the cost to this country of lost 
potential global market share as 78 million visitors and 6.6--
excuse me, $606 billion in revenue. Brand USA was established 
to reverse this decline and to capitalize on the growth in the 
international travel market. The World Travel Organization 
forecasts global travel spending to double to $2.1 trillion by 
2020 and to increase by 10 percent as a share of global travel 
GDP.
    Further, the U.S. Department of Commerce forecasts that by 
2016 the United States will welcome 81 million visitors, which 
is 22 million additional visitors above 2010 and will support 
338,000 more jobs.
    Last week, we unveiled Brand USA to the global tourism 
community at World Travel Market in London. Brand USA is truly 
a brand for Americans to be proud of. Our brand captures the 
indomitable spirit of inclusivity and possibility as the 
greatest destination in the world.
    Brand USA is committed to developing innovative cooperating 
marketing programs that will create and add value for the U.S. 
travel and tourism industry. And while in London we met with 
Visit USA representatives of the United Kingdom and Europe.
    Through our relationships with these kinds of industry 
partners, Brand USA will develop customized initiatives 
targeted to key international markets. At home, we've met with 
iconic destinations and brands as well as smaller destinations.
    In the coming days and weeks, we will continue to meet with 
an inclusive cross-section of the industry such as Visit 
Wyoming, the South Dakota Department of Tourism, and our 
National Park Service.
    Since I joined Brand USA as CEO in late May, I'm pleased to 
report great progress. We have recruited some of the most 
talented minds in tourism marketing to develop a strategy to 
recapture the world's imagination. Our team is a diverse and 
international group. We speak seven languages and have lived 
all over the world.
    We have been proactive in ensuring transparency in our 
operations. Each month we hold an open board meeting that any 
member of the public is welcome to listen in on. We post the 
minutes of these meetings on our corporate website, 
thebrandusa.com, which I encourage everyone to visit.
    Our focus between now and the launch of our first 
international advertising campaign in March is essentially 
three-fold.
    First, we are highly committed to raising monies from the 
travel and tourism industry and beyond. Brand USA has cash 
commitments in excess of $4 million and in kind commitments at 
over $12 million.
    We believe in delivering to the Department of Commerce--we 
plan on delivering to the Department of Commerce--our first 
request for a drawdown of matching funds as soon as next week.
    Second, we are swiftly developing marketing communications 
for all key markets. Our logo and brand strategy give you a 
sense of the innovative direction in which we are headed. In 
March, we plan to launch our global advertising campaign.
    We're selecting our target markets based on a robust 
analysis of factors--such as volume of the international 
travel, the value or spend of the travelers from that location, 
the growth potential, ease of entry into the United States, 
seasonality, and more.
    And finally, we are engaged in frequent communications with 
industry and the government. Since October 1, our team has 
participated in 24 conferences and meetings to bring Brand USA 
to our stakeholders and seek their input.
    Brand USA must be an inclusive model that promotes not only 
traditional attractions and destinations but also cultural 
tourism and outdoor spaces that attract increasing numbers of 
return visitors.
    We maintain a cooperative and collaborative relationship 
with Congress and the executive branch. There is great mutual 
interest to promote the Brand USA message and to ensure that 
visa and entry/exit policies allow the United States to take 
full advantage of our efforts.
    You'll be hearing more from us as we progress on Brand USA 
activities and promotional efforts.
    I thank you for your time this afternoon and look forward 
to answering your questions.
    [The prepared statement of Mr. Evans follows:]

 Prepared Statement of James P. Evans, Chief Executive Officer, Brand 
                                  USA

Introduction
    Esteemed members of the Subcommittee, it is a pleasure to meet with 
you today and report on our progress at the Corporation for Travel 
Promotion now doing business as Brand USA. Thanks to the vision and 
continued support of Congress and the administration, the United States 
is now in a much-improved position to compete for international 
visitors. This is good news for business owners across the country in 
tourism-related industries.
Travel and Tourism: A Growing Global Opportunity
    We are eager to continue our collaboration with the government to 
achieve the National Export Initiative. In 2010, travel and tourism 
exports totaled $134 billion, which was 7 percent of total U.S. exports 
and 25 percent of U.S. services exports. Travel and tourism industries 
support 7.5 million jobs, of which 1.1 million are supported by 
international travelers. Increasing international visitation to the 
United States is now more important than ever because it provides a 
stimulus without taxpayer burden. With every 65 international travelers 
to the United States supporting 1 U.S. job, international visitation is 
vital part of each of this Nation's 435 congressional districts.
    Until now, the United States has been one of few industrialized 
nations without a coordinated international visitation program. Since 
2000, our share of international arrivals declined by 37 percent--from 
17 percent of the world market in 2000 to 11 percent today. Between 
2000 and 2010, global travel market grew by more than 60 million 
travelers annually, yet U.S. visitation stayed virtually flat. 
According to Oxford Analytica, the cost to this country of lost 
potential global market share is 78 million visitors and $606 billion 
in lost spending. Brand USA was established precisely to reverse the 
decline in international visitation to the United States and return 
this country to its pre-2001 trajectory.
    Currently, the travel market is one of the few booming sectors 
globally. The World Travel Organization forecasts global travel 
spending to double to $2.1 trillion by 2020 and increase by 10 percent 
as a share of global GDP. Further, according to the U.S. Department of 
Commerce, visitor volume is expected to increase 6 percent in 2011. 
Going forward, the United States is forecast to see a 5 percent annual 
growth rate in visitor volume from 2012 to 2016. By 2016 we are 
forecast to welcome 81 million visitors, which is an additional 22 
million visitors and support for 338,000 jobs over 2010.

Brand USA
    This month, we unveiled Brand USA to the global tourism industry at 
the World Travel Market in London and we were extremely well received 
(earned media value from the brand unveiling is estimated in the 
hundreds of thousands). Brand USA is truly a brand for Americans to be 
proud of. Our brand captures the indomitable spirit of inclusivity and 
possibility as the greatest destination in the world.
    Brand USA is committed to developing innovative, cooperative 
marketing programs that will create and add value for the U.S. travel 
and tourism industry. While in London, we met with Visit USA 
representatives of the UK and Europe. Through our relationships with 
these kinds of industry partners, Brand USA will develop customized 
initiatives targeted to key international markets. At home, we've met 
with iconic destinations and brands as well as smaller destinations. In 
the coming days and weeks, we will continue to meet with an inclusive 
cross-section of the industry such as Visit Wyoming, the South Dakota 
Department of Tourism, and the National Parks Service.

Progress at Brand USA
    Since I joined Brand USA as CEO in late May, I am pleased to report 
robust progress. We have recruited some of the best minds in the 
marketing world to develop a strategy to recapture the world's 
imagination and inspire millions of international travelers to visit 
U.S. destinations from coast to coast. Our team is a diverse and 
international group: we speak seven languages and have lived everywhere 
from the Netherlands to Japan to Brazil, and beyond.
    In just a few short months we have set up our offices near Farragut 
West, taken on two beautiful websites, and unveiled this country's new 
brand to a feted industry reception in London.
    We have been proactive in assuring transparency in our operations. 
Each month we have held an open board meeting that any member of the 
public is able to dial into. We post the minutes of these meetings on 
our corporate website, thebrandusa.com, which I encourage you to visit.
    Our focus between now and the launch of our first international 
marketing campaigns in March is essentially three-fold. First, we are 
highly committed to raising monies from the travel and tourism industry 
to fund Brand USA's operations and marketing campaigns. Brand USA has 
cash commitments in excess of $4 million and ``in-kind'' commitments of 
over $12 million. We will be delivering to the Department of Commerce 
our first request for a drawdown of matching funds as soon as next 
week.
    Second, we are swiftly developing marketing communications for our 
key markets. Our logo and brand strategy give you a sense of the 
innovative direction in which we are headed. In March we plan to launch 
our global advertising campaign. We are selecting our target markets 
based on a robust analysis of factors such as volume of international 
travel, value, growth, prominence of target market, ease of entry, 
seasonality, and more.
    Finally, we are engaged in frequent communication with industry and 
government stakeholders to inform Brand USA activities, messaging and 
policies so that they reflect the state of industry and government 
stakeholders. Since October 1, our team has participated in 24 
conferences and meetings to bring Brand USA to our stakeholders. Brand 
USA must be an inclusive model that promotes not only traditional 
attractions and destinations, but also cultural tourism and outdoors 
spaces that will attract increasing numbers of return visitors. 
Constant exchange with brands in all sectors of the travel industry--
including lodging, transportation, attractions, retail, distribution, 
tour operation, rental cars, food and beverage, financial services, and 
more--in all areas of the country is critical to ensuring that we 
accurately embody all they have to offer and that we demonstrate to 
them the return on their investment in Brand USA. We are also preparing 
to meet with the Chief Marketing Officers of the leading CVBs and 
DMOs--small and large--across the country to ensure that we incorporate 
their ideas into our marketing.
    Stakeholder communication also means maintaining a cooperative and 
collaborative relationship with the Congress and with the Executive 
Branch. We all share the national goal of increasing international 
visitation and creating jobs. There is a great convergence of interest 
to promote the Brand USA message and ensure that visa and entry/exit 
policies allow our country to take full advantage of our efforts. 
Increased demand for visas from emerging markets like Brazil, China, 
and India require appropriate response from responsible U.S. government 
agencies. According to the Department of Commerce, last year we had 1.2 
million visitors from Brazil (a 34 percent increase over 2009); 802,000 
visitors from China (a 53 percent increase over 2009); and 651,000 from 
India (an 18 percent increase over 2009).
    You will be hearing from us as we progress on Brand USA activities, 
messaging, and policies to ensure you are aware of the state of the 
industry and our promotion efforts. Thank you for your time, and I look 
forward to answering any questions you might have.

    Senator Klobuchar. Thank you very much, Mr. Evans.
    Mr. Edman?

             STATEMENT OF JOHN F. EDMAN, DIRECTOR, 
                   EXPLORE MINNESOTA TOURISM

    Mr. Edman. Well, thank you, Madam Chair, and thank you for 
everyone on the Committee for giving the travel industry the 
attention that it deserves and I really do appreciate the 
opportunity to speak from the perspective of a smaller state 
like Minnesota, although I have observed, Madam Chair, due to 
your efforts the stature of our state looms large in the eyes 
of this Committee.
    It's worth repeating but travel and tourism does work for--
--
    Senator Klobuchar. That's why you survived three Governors, 
I see that. OK.
    [Laughter.]
    Mr. Edman. As Mr. Evans mentioned, our industry generates 
$1.7 trillion and one in nine jobs, and that affects all 
states, including states like Minnesota. As you know, Minnesota 
is the north central part of the country.
    We're well known for our outdoors and our natural 
resources. That's why people originally came to our state.
    But we also are home to many large cities and small towns. 
Our largest area, Minneapolis-St. Paul, is home to over 20 
Fortune 500 companies and a great place for business to 
prosper. The area is also a major tourism destination, drawing 
visitors for arts and museums and sports.
    Now, in Minnesota tourism is an $11 billion industry, and 
just to put that in perspective, the economic impact is 
comparable to agriculture in terms of its importance in our 
state. Travel and tourism generates over 17 percent of all 
sales tax in Minnesota. That's over $700 million.
    And our industry generates over 240,000 jobs. That's 
roughly 11 percent of all the private-sector jobs in our state.
    Each year, 39 million travelers come to Minnesota for 
leisure and for business and these people stay in hotels, 
resorts, but they also have secondary impacts on businesses 
from financial services to printing and everything in between. 
Half of the economic impact is in the Minneapolis-St. Paul 
area.
    The travel spending reaches every other part of our state 
as well and there are many rural counties in our state that the 
leisure and hospitality industry is the primary employer. As 
you would have guessed, summer is our primary season for travel 
but the economic impact is felt year round.
    We draw people mostly from the north central region for 
leisure and for business, and we've affected--we felt the same 
impact of travel trends as the rest of the country and that 
includes travel closer to home, more last-minute travel, higher 
demand for value or bargains in travel spending.
    But this last year we've seen a gradual increase in 
occupancy and hotel revenue and we're starting to see longer-
haul travel to our state, an increased interest from abroad. 
Internationally, we draw people to our state for business and 
education.
    We are--draw people because of our well-known attractions--
the Mississippi River, the Great Lakes and Minneapolis-St. 
Paul, of course, the Mall of America, which brings in over 3 
million international visitors annually. But our most important 
international market is Canada and we've seen significant 
growth--43 percent in Canadian traveler spending in 2010.
    Other markets include the U.K., Scandinavian countries, 
Germany, Japan and Mexico, and we're also showing some 
increased interest in the opportunities in China as well.
    International travel can certainly help the hospitality 
industry recover from the impacts of the recession and, indeed, 
the entire country needs to be ready to compete effectively in 
the marketplace.
    As we strive to attract visitors from abroad, it's 
important that we make it easier for visitors to come to our 
country.
    America's burdensome visa process drives millions of 
visitors to other countries, which imposes an enormous cost for 
all of our states.
    Key to economic growth and job creation is a smarter visa 
policy and we need to reduce visa wait times and make travel to 
the U.S. easier, and I am very pleased, Madam Chair and members 
of the Committee, with your efforts on the provisions in the 
International Travel Facilitation Act, which helps alleviate 
long wait times at embassies and gives the State Department the 
tools and incentives it needs.
    And then, finally, facilitating the visa process is 
important but it's not the only thing we can do and I'm very 
pleased that Congress last year passed into the law the 
Corporation for Travel Promotion to give a strong brand, as Mr. 
Evans was talking about, in the international marketplace, and 
this public and private effort is exactly the kind of tool we 
should be making.
    We should have been doing this years ago, to speak with one 
voice as we seek to increase market share of travelers to this 
incredible collection of 50 states.
    Travel and tourism is a huge driver for employment and 
economic development and I greatly appreciate the work of this 
Committee in support of travel and tourism and jobs. Travel and 
tourism--it works for Minnesota, it works for America and it 
works for us all.
    Thank you very much.
    [The prepared statement of Mr. Edman follows:]

   Prepared Statement of John F. Edman, Director, Explore Minnesota 
                                Tourism

    Madam Chair and members of the Subcommittee: My name is John Edman 
and I am Director of Explore Minnesota Tourism, the official state 
tourism agency for the state of Minnesota. I want to thank you for all 
you have done to address the issues travel and tourism in the U. S., 
and thank you for giving me the opportunity to talk about the economic 
impact of travel and tourism in my home state of Minnesota.
    I am very pleased to have the opportunity to comment on the travel 
industry's impact on the economy from the perspective of a smaller 
state like Minnesota. Travel and Tourism Works for America, and this 
industry is crucial to our country's overall economy. The leisure and 
hospitality sector generates $1.7 trillion in gross sales and supports 
one in nine jobs nationwide. Domestic and international travelers 
purchase a diverse range of goods and services, which impacts the 
economies of each of the fifty states.
    Minnesota is located in the north-central part of the country and 
is well-known for its abundance natural resources, including our 
10,000-plus lakes. For well over a century, our lakes and woods have 
drawn visitors for outstanding outdoor recreation. Minnesota is also 
home to vibrant large cities and small towns. Our largest metropolitan 
area, Minneapolis-St. Paul, is headquarters to more than twenty Fortune 
500 companies, drawing business travelers from around the world. The 
Twin Cities area is also a major tourism destination, drawing visitors 
for its top-notch arts and museums, sports, and shopping.
    Travel and tourism in Minnesota is an $11 billion industry, a vital 
part of our diverse economy. It impacts every county in our state, and 
is comparable to agriculture in its contributions to the gross state 
product. Travel and tourism also generate more than 17 percent of 
Minnesota's annual sales tax revenues, almost $700 million. What's 
more, our leisure and hospitality sector accounts for more than 238,000 
jobs, or roughly 11 percent of all private-sector jobs in our state.
    Each year, 39 million travelers come to Minnesota to enjoy our 
natural resources and cultural attractions, attend conventions and do 
business. These visitors spend money at businesses throughout the 
state, including hotels, resorts, restaurants, shops, museums, gas 
stations, car rentals and more. But these direct expenditures also 
generate a wide variety of secondary impacts across Minnesota. From 
financial services to printing, a wide variety of Main Street 
businesses benefit from spending by the leisure and hospitality sector.
    Travel and tourism generates business in every region of our state, 
from large metropolitan areas to small towns and villages, from our 
north woods and lakes to our rural areas. More than half of the 
economic impact of travel and tourism in Minnesota is in the 
Minneapolis-St. Paul metropolitan area. But travel and tourism are 
important to local economies throughout the state. There are many areas 
where the hospitality industry is a primary business and lead employer. 
Although summer is Minnesota's primary season for leisure travel, the 
economic impact of travel and tourism in our state is felt year-round.
    Minnesota's primary travel market is the North Central U.S., 
although we attract leisure and business travelers from across the 
country. Minnesota has felt the impact of several trends in domestic 
travel in recent years, responses to the public's concern about the 
economy. These trends include travel closer to home, more last-minute 
travel planning, and higher demand for good values in travel spending.
    In addition to domestic leisure and business travelers, Minnesota 
draws visitors from around the world for business, education, cultural 
exchanges and vacation travel. Among our draws for international 
leisure travelers are the Mississippi River, our great Lake Superior, 
the cosmopolitan Minneapolis-St. Paul area and Mall of America, the 
largest shopping and entertainment mall in the U.S. The Mall of America 
alone attracts more than 3 million international visitors annually.
    Our most important international market is Canada; we have seen 
significant growth in the number of Canadian visitors in the past year. 
Other target markets include the United Kingdom, the Scandinavian 
countries, Germany, Japan, and Mexico. Minnesota sees tremendous growth 
opportunities for new markets such as China. For cost-effective 
international marketing, Explore Minnesota works with coalitions of 
other states, such as Great Lakes USA and Mississippi River Country. 
These partnerships allow us to expand our reach by working with other 
states on common goals.
    Minnesota's travel and tourism industry is showing signs of gradual 
improvement compared to our industry's health just a few years ago. 
This reflects the slow recovery U.S. travel is undergoing following the 
significant toll the recession took on this industry. In Minnesota, we 
have seen a gradual increase in hotel occupancy and revenues as leisure 
travel rebounds and businesses begin to spend more on travel again. We 
are also starting to see longer haul travel and an increase interest in 
travel from abroad. International travel can significantly help the 
hospitality industry Minnesota and other states recover from the 
impacts of the recession. In addition, the United States needs to be 
ready to compete effectively in the international travel market as the 
global economy expands in years to come.
    As Minnesota and other states strive to attract new visitors from 
abroad, it is important that the U.S. is welcoming and makes it easier 
for visitors to come to our country. America's burdensome visa process 
drives millions of international visitors to other countries, which 
imposes an enormous cost for Minnesota and all of our fifty states. Key 
to economic growth and job creation in the travel sector is a smarter 
visa policy to reduce wait times and increase ease of travel. As 
director of the state of Minnesota's official tourism agency, I 
strongly support the International Travel Facilitation Act.
    Facilitating the visa process is important, but it is not the only 
thing that we can do. I am very pleased that Congress last year 
authorized the Corporation for Travel Promotion to create a strong 
brand for the U.S.A. in the international travel market. This public 
and private program is exactly the kind of effort we should be making 
as a country to speak with one voice, cut through the clutter, and 
increase the market share of travelers to this incredible collection of 
fifty diverse states. Efforts such as these promote the entire country 
and bring jobs and growth for us all.
    Travel and tourism is a huge economic driver for jobs, economic 
development and state revenue for all fifty states. I greatly 
appreciate all the efforts this committee has made to support travel 
promotion and travel-related jobs in the U.S. and the attention that 
you are giving our industry through hearings such as this. Travel and 
tourism works for Minnesota, works for America, and works for us all. 
Thank you, Madam Chair and committee members, for giving travel and 
tourism the attention that it deserves.

    Senator Klobuchar. Thank you very much, Mr. Edman.
    Mr. Zuk?

             STATEMENT OF JONATHAN ZUK, PRESIDENT,

             AMADEO TRAVEL SOLUTIONS/VICE CHAIRMAN,

           RECEPTIVE SERVICES ASSOCIATION OF AMERICA

    Mr. Zuk. Madam Chair Klobuchar, Senator Blunt and members 
of the Committee, it's indeed an honor to appear before you 
today.
    The Receptive Services Association of America, RSAA, is a 
national nonprofit trade association whose primary mission is 
to facilitate international travel to and within the United 
States.
    The Association's members include resident United States 
inbound tour operators and destination management companies, 
tourist service suppliers such as hotels, transportation 
companies, attractions, as well as a host of other U.S. tourism 
product suppliers. A significant portion of our members would 
be called small businesses.
    Acting as facilitators, the Receptive tour operators 
provide a commercially viable opportunity for small and often 
financially challenged destinations, attractions and tourism 
suppliers to market themselves on a worldwide basis through a 
direct pipeline to the international traveler.
    This enables these small businesses to expand their global 
reach and benefit from our extensive expertise and 
partnerships.
    Our members' main function is as a bridge between the 
international traveler and the tourism service provider in the 
United States. We achieve this goal by working closely with 
tour companies around the world who specialize in selling the 
United States as a travel destination. These overseas 
colleagues will call on our members to organize all the 
components or many of them of a guest's visit.
    RSAA members specialize in developing memorable experience 
for international travelers by contracting hotels, tours, 
excursions and many more. These products are marketed and sold 
internationally through our tour company clients.
    Foreign tour companies that sell the USA as a tourist 
destination generally belong to a marketing organization called 
Visit USA. Visit USA committees are nonprofit organizations 
that have been established in most of the countries which 
comprise the main source of visitors to the United States, 
typically the visa waiver countries, and whose sole purpose is 
to promote travel to the USA.
    These tour companies are specialists in selling and 
promoting tourism in various destinations around the world 
including but not limited to the United States.
    In the absence of any nationally or federally funded 
program, RSAA members, together with Visit USA members, have 
traditionally shouldered the burden of marketing and promoting 
and selling the United States as a tourist destination.
    For example, Visit USA Europe represents more than 13 
countries within Europe and includes most of the top ten source 
markets for the USA. RSAA and Visit USA Europe work in a 
strategic partnership whose purpose is to facilitate and 
increase travel to the United States.
    RSAA members are the only link in the entire tourism chain 
that depends solely on the international traveler for their 
livelihood and are acutely and instantly aware of any changes 
or trends in their source markets.
    This role has resulted in a wealth of knowledge and 
expertise unparalleled in any sector of the travel industry.
    RSAA members are responsible for driving approximately 6 
billion export dollars in annual spending by overseas visitors 
in the United States and hundreds of thousands of jobs 
nationwide benefit from this expenditure.
    Department of Commerce estimates the total number of 
leisure visitors to the United States at 14.6 million visitors 
of which 8 million arrive from our partners in Europe.
    Our members are intimately involved with over 30 percent of 
that total and are a major factor in other sectors such as 
business travel, meeting and conventions. Increased travel to 
the United States immediately results in new jobs and economic 
growth.
    On the other hand, you must recognize that reduced travel 
to the United States costs our country jobs and leads to the 
loss of many small tourism-oriented businesses across the 
country.
    It is paramount that our nation's efforts are correctly 
focused and creative, and in a collaborative atmosphere with 
our tourism partners around the world.
    We caution that an international marketing approach must 
involve our foreign partners who already have the knowledge and 
expertise to send tourists to the United States, and failure to 
do so would create a backlash that would create the opposite 
effect.
    Since the Travel Promotion Act was first proposed, we have 
enthusiastically supported any and all efforts to promote 
visits to the United States and we fully support the creation 
of the CTP, now Brand USA Inc.
    And RSAA and Visit USA Europe are experts in promoting and 
marketing the USA as a tourist destination, and although we 
have yet to collaborate we look forward to building and working 
with Brand USA in building an unsurpassed worldwide marketing 
program.
    The competition to attract the international long-haul 
traveler is fierce, and even though we have not had an 
international federal program, international demand for the 
United States has maintained strong levels and competing 
destinations have suffered from political and natural disasters 
which have an immediate effect on travel.
    The cloud on the horizon is the international economic 
situation and the loss of disposable income to the middle class 
around the world. These are the people who make up the bulk of 
our international visitors.
    The good news is that in turbulent times the world seeks 
out the stability and comfort of the United States and its 
strong currency.
    However, in the arena of international competition for the 
world traveler, the United States does suffer from a 
disadvantage due to visa rules and we urge you to add to and 
expand the list of the visa waiver countries and encourage a 
faster, cheaper and less cumbersome way to process the visa 
applications.
    It is our belief that by working together to use all our 
advantages and capabilities we will be able to succeed and 
thrive to make the United States this nation of choice for 
tourists worldwide.
    Thank you for having us here today and I'm free to answer 
any questions.
    [The prepared statement of Mr. Zuk follows:]

Prepared Statement of Jonathan Zuk, President, Amadeo Travel Solutions/
        Vice Chairman, Receptive Services Association of America

    Chairwoman Klobuchar, Senator Blunt and members of the Committee, 
it is indeed an honor to appear before you today. My name is Jonathan 
Zuk, and I am the Vice Chairman of the Receptive Services Association 
of America.
    The Receptive Services Association of America (RSAA) is a national 
non-profit trade association whose primary mission is to facilitate 
international travel to and within the United States.
    The Association's members include resident United States inbound 
tour operators and destination management companies, tour service 
suppliers such as hotels, transportation companies, attractions, 
destinations as well as a host of other U.S. tourism product suppliers. 
A significant portion of our members would be classified as ``Small 
Businesses''.
    Acting as facilitator's receptive tour operators provide a 
commercially viable opportunity for small, and often financially 
challenged destinations, attractions, and other tourism suppliers to 
market themselves on a worldwide basis through our direct pipeline to 
the international traveler. This enables these small businesses to 
expand their global reach and to benefit from our extensive expertise 
and partnerships. Our member's main function is as a ``bridge'' between 
the international traveler and the tourism service provider in the 
United States. We achieve this goal by working closely with tour 
companies around the world who specialize in selling the United States 
as a travel destination. These overseas colleagues will call on our 
members to organize many, if not all the components of a guests visit. 
We provide one stop shopping.
    To facilitate these services our member's contract with and 
purchase tourism products from providers throughout the 50 states and 
Puerto Rico. These products cover a comprehensive range, from popular 
destinations, and attractions to the rural, extraordinary and off the 
beaten path, areas.
    RSAA members specialize in providing memorable experiences for 
international travelers, including hotels, tours, excursions, dude 
ranches, sailing adventures, bike tours, off road vehicles, back 
country visits, helicopter rides, restaurant reservations, tickets to 
attractions and theater and many more.
    These products are marketed and sold internationally through our 
tour company clients.
    Foreign tour companies that sell the USA, as a tourist destination 
generally belong to a marketing organization called Visit USA. Visit 
USA committees are non-profit organizations that have been established 
in most of the countries which comprise the main source of visitors to 
the United States (typically the visa waiver countries) and whose sole 
purpose is to promote travel to the USA. These tour companies are 
specialists in selling and promoting tourism in various destinations 
around the world, including, but not limited to, the United States.
    In the absence of any ``national or federally funded program'', 
RSAA members together with Visit USA members have traditionally 
shouldered the burden of marketing, promoting and selling the United 
States as a tourist destination worldwide. For Example, Visit USA 
Europe represents more than 13 countries within Europe and includes 
most of the top 10 source markets for the USA, such as the United 
Kingdom, Germany, France, Italy, Spain while also representing 
important growth markets such as Russia.
    RSAA and VISIT USA Europe work in a strategic partnership whose 
purpose is to facilitate and increase travel to the United States.
    RSAA members are the only link in the entire tourism chain that 
depends solely on the international traveler for their livelihood and 
are acutely and instantly aware of any changes or trends in their 
source markets. This unique role has resulted in a wealth of knowledge 
and expertise unparalleled in any sector of the travel industry. This 
knowledge serves as the foundation for the world traveler visiting the 
United States and its influence is substantial, especially in the 
perennial top ten visitor countries for the USA.
    RSAA members are responsible for driving approximately 6 Billion 
export dollars in annual spending by overseas visitors in the United 
States, and hundreds of thousands of jobs nationwide that benefit from 
this expenditure. The Department of Commerce estimates the total number 
of leisure visitors to the United States per year at 14.6 million 
visitors, of which 8 million arrive from our partners in Europe. Our 
members are intimately involved in facilitating and organizing over 30 
percent of that total, and are a major factor in other sectors such as 
business travel, meeting and conventions, education programs summer 
camps and many more. If they come here we will facilitate it.
    Increased travel to the United States immediately results in new 
jobs and economic growth, on the other hand we must also recognize that 
reduced travel to the United States costs our country jobs and leads to 
the loss of many small tourism oriented businesses across the country. 
It is therefore paramount that our Nation's efforts are correctly 
focused and create a collaborative atmosphere with our tourism partners 
around the world.
    RSAA cautions that an international marketing approach must involve 
our foreign partners who already have the knowledge and expertise to 
send tourists to the United States. Failure to utilize existing 
partners may cause a backlash that would create the opposite effect on 
our overall numbers as a country.
    Since the Travel Promotion Act was first proposed we have 
enthusiastically supported any and all efforts to promote visits to the 
United States. We fully support the creation of the CTP, now Brand USA 
Inc, and look forward to participating in any and all of their 
marketing efforts.
    We stand ready to lend our expertise and unique knowledge to the 
Brand USA Inc management team and will be delighted to contribute our 
unsurpassed ``local'' knowledge. Brand USA Inc has a huge task ahead of 
it and many different segments of the market are poised to participate 
in the effort and programs. Satisfying everyone is not an enviable 
task. However as I have indicated our segment of the industry is the 
only sector that encompasses all of the other sectors and offers 
unparalleled expertise.
    The competition to attract the International ``Long Haul'' Traveler 
is fierce and the budgets that are spent by rival countries such as 
Australia, the United Kingdom, Turkey and others are always 
significant, even though we have not had a national or Federal program, 
international demand for travel to the United States has maintained 
very strong levels. Competing destinations have suffered from political 
economic turmoil and natural disasters which have an immediate effect 
on travel. Within this context the United States is seen as a safe 
destination with world class services, facilities, attractions and 
activities. The cloud on the horizon is the international economic 
situation and the loss of disposable income to the middle class around 
the world. These are the people who make up the bulk of our 
international visitors. We feel that in turbulent times, the world 
seeks out the stability and comfort of the United States and its strong 
currency.
    In the arena of international competition for the world traveler, 
the United States does suffer from a disadvantage due to the Visa 
rules, the processing cost and time.
    While we understand and support any and all efforts to maintain a 
high level of security, throughout the country, we urge you to explore 
the option of adding to the visa Waiver countries. To seek a faster 
cheaper and less cumbersome way to process visa applications. We are 
confident that this will help grow the number of visitors to the United 
States.
    Through all of this, the demand for travel to the United States is 
still growing and there is an opportunity for Brand USA and the 
industry to capitalize on this momentum. It is our belief that by 
working together to use all our advantages and capabilities, we will be 
able to succeed and thrive to make the United States the destination of 
choice for tourists worldwide.
    Thank you.

    Senator Klobuchar. Thank you very much.
    Mr. Tisch?

   STATEMENT OF JONATHAN TISCH, CO-CHAIR OF THE BOARD, LOEWS 
CORPORATION, CHAIRMAN AND CHIEF EXECUTIVE OFFICER, LOEWS HOTELS

    Mr. Tisch. Chairwoman Klobuchar, Ranking Member Blunt and 
members of the Committee, thank you for inviting me to speak 
today on an issue that is of critical importance to America's 
economy, specifically, the need to boost our competitiveness 
when it comes to attracting international travelers.
    Under your joint direction, this Subcommittee has been 
reenergized and our industry welcomes and appreciates your 
leadership. As you've heard, America's travel industry 
generates nearly $1.7, $1.8 trillion of economic output 
annually and directly employs 7.5 million Americans.
    The hotels and the accommodations segment in which my 
company, Loews Hotels, operates accounts for nearly $131 
billion in economic output and 1.7 million Americans make a 
living in this segment of travel and tourism, and we operate 
more than 53,000 places of business nationwide.
    Nearly one-fifth of those jobs depend on international 
travel. More importantly, international travel is where the 
jobs of the future should be created. Between 2000 and 2010, 
the world experienced an international travel boom or at least 
some of it did.
    During that decade, long-haul travel to China and India 
grew by more than 120 percent. Italy was up 48 percent and 
Japan 32 percent.
    How did we perform? The U.S. was up just 2 percent. 
Globally, our market share fell from 17 percent in 2000 to, as 
you've heard, 12.4 percent in 2010. The economic stakes here 
are enormous.
    Our government should establish a national goal of 
reclaiming our share of the overseas travel market. Regaining 
our 17 percent market share would attract an additional 98 
million visitors to the U.S., generating more than 1 million 
new jobs and $859 billion in economic output, according to the 
U.S. Travel Association. Now, how do we reach that goal?
    First, Congress should continue to support the Corporation 
for Travel Promotion or, as we now know it, Brand USA. Just 
this year alone, the U.K., South Korea and Mexico all rolled 
out campaigns to promote their countries to international 
travelers. If the U.S. is going to compete, Brand USA has a 
critical role to play.
    Second, we must reform America's burdensome and 
bureaucratic visa system. While other countries are winning 
more global travel business, our visa system operates like a 
giant ``not welcome'' sign.
    In China, there are only five U.S. visa-processing centers 
to serve a country of 1.3 billion people. Many potential 
Chinese visitors must travel hundreds of miles to apply for a 
visa only to confront long lines, cramped facilities and hard-
working but overstretched consular officers.
    The travel industry is working closely with the State 
Department, particularly with Deputy Secretary Tom Nides, to 
implement reforms and improve the process.
    One area where Congress can make a substantial impact is, 
as you've heard, expanding the visa waiver program. Adding 
countries like Brazil, Poland and Chile could quickly double 
the number of arrivals from these three countries, generating 
an additional $7 billion in spending and creating another 
50,000 American jobs.
    I would like to thank Chairwoman Klobuchar and Subcommittee 
members Blunt, Heller and Warner, and Senators Mikulski and 
Kirk for championing legislation to make the visa process more 
efficient and more effective. Senators Schumer and Lee have 
also demonstrated strong leadership by introducing the Visit 
USA Act.
    These bills and others recently introduced in the Senate 
and the House represent important steps toward improving our 
visa process and making the U.S. a more welcoming destination.
    And third, another strategic priority must be addressed 
when we look at America's inadequate infrastructure and, 
specifically, our aviation infrastructure.
    One visit to a U.S. airport is usually enough to persuade 
visitors that our aviation infrastructure is antiquated, 
inefficient and unwelcoming. U.S. aviation infrastructure ranks 
32nd in the world behind countries like Panama, Chile and 
Malaysia.
    The American Society of Civil Engineers gave U.S. aviation 
infrastructure a D grade. Modernizing and upgrading our 
aviation infrastructure requires significant investment but 
consider the costs that are already imposed on our economy.
    Flight delays at New York's three major airports cost the 
regional economy $2.6 billion in 2008 and the estimates are by 
2025 that number will be $79 billion. Unfortunately, plans to 
modernize America's infrastructure are as gridlocked as our 
nation's airports.
    The Surface Transportation Act expired in 2009. It is now 
on its eighth temporary extension. Legislation to fund the 
next-generation air transportation system is mired in 
controversy. This needs to change and needs to change quickly.
    We should also pursue innovative public-private 
partnerships to leverage our resources. The main point that I 
would like to impress upon you is the huge potential of the 
global travel market. Tapping into this potential starts by 
establishing a national goal of reclaiming America's 17 percent 
of that market share and enacting the policies to get us there.
    In my industry alone, restoring the U.S. share to 2000 
levels would create more than 400,000 new jobs by 2015.
    As Chairman Emeritus of the U.S. Travel Association, I can 
tell you that our members stand united and ready to work with 
you to help America compete and win in this very competitive 
market.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Tisch follows:]

  Prepared Statement of Jonathan Tisch, Chairman and Chief Executive 
  Officer, Loews Hotels and Chairman Emeritus, U.S. Travel Association

    Chairwoman Klobuchar, Ranking Member Blunt, members of the 
Committee: Thank you for inviting me to speak today about an issue of 
critical importance to America's economy--specifically, the U.S. travel 
industry and the need to boost our competitiveness when it comes to 
attracting international travelers. Under your joint direction, this 
subcommittee has been re-energized--and our industry welcomes and 
appreciates your leadership.
    For the first time in several years, the travel industry is finally 
seeing evidence that the recovery is taking hold. Hotel demand and 
occupancy are both up over the last year.\1\ Our baseline economic 
metric--``revenue per available room''--is up 8.3 percent industry-
wide.\2\ That's a positive sign for both our industry and the overall 
economy.
---------------------------------------------------------------------------
    \1\ ``Outlook for the U.S. Lodging Industry,'' Smith Travel 
Research, October 27, 2011.
    \2\ Ibid.
---------------------------------------------------------------------------
    America's travel industry is responsible for generating nearly $1.8 
trillion of economic output annually and directly employing 7.5 million 
Americans.\3\ The hotels and accommodations segment in which my 
company, Loews Hotels, operates accounts for nearly $131 billion in 
economic output and 1.75 million American jobs at more than 53,000 
places of business nationwide.\4\
---------------------------------------------------------------------------
    \3\ U.S. Travel Association.
    \4\ Ibid.
---------------------------------------------------------------------------
    Nearly one-fifth of those jobs are dependent on international 
travel.\5\ More importantly, international travel is where the jobs of 
the future could be--should be--created. The most lucrative segment of 
the travel market--international long-haul travel--grew by 40 percent 
over the last 10 years and is projected to grow another 40 percent over 
the next ten.\6\
---------------------------------------------------------------------------
    \5\ Ibid.
    \6\ U.S. Travel Association, based on Oxford Economics data.
---------------------------------------------------------------------------
    Between 2000 and 2010, the world experienced an international 
travel boom--or at least most of it did. During that decade, long-haul 
travel to China grew by 126 percent; travel to India shot up 124 
percent. Italy was up 48 percent, Japan 32 percent and Australia 23 
percent.\7\
---------------------------------------------------------------------------
    \7\ Office of Travel & Tourism Industries; Oxford Economics, as 
cited in Ready for Takeoff, U.S. Travel Association.
---------------------------------------------------------------------------
    And how did the U.S. perform during this global travel ``gold 
rush?'' Long-haul travel to the U.S. was up a paltry 2 percent. 
Globally, our share of this critical market fell from 17 percent in 
2000 to just 12.4 percent in 2010.\8\
---------------------------------------------------------------------------
    \8\ Department of Commerce, as cited in Ready for Takeoff, U.S. 
Travel Association.
---------------------------------------------------------------------------
    The economic stakes here are truly enormous. Our government should 
establish a national goal of reclaiming our share of the international 
travel market.
    Consider this fact: Each overseas traveler to the U.S. spends an 
average of $4,000 during a visit.\9\ Simply regaining our 17 percent 
market share would attract an additional 98 million visitors to the 
U.S.--generating more than one million new jobs and $859 billion in 
economic output, according to the U.S. Travel Association.
---------------------------------------------------------------------------
    \9\ Ready for Takeoff, U.S. Travel Association.
---------------------------------------------------------------------------
    So now the critical question: How do we reach that national goal?
    Today, I'd like to briefly outline three strategic policy 
priorities that will enhance America's competitiveness in attracting 
international visitors and create a new stream of growth in our 
economy.
    First, Congress should continue to support the Corporation for 
Travel Promotion--now known as Brand USA--established under the Travel 
Promotion Act, a landmark piece of legislation which was made possible 
due to the strong support of members like Chairwoman Klobuchar, Senator 
Begich and then-Representative Blunt. Jim Evans, CEO of Brand USA is 
here today to update you on the exciting work of this innovative, 
public-private partnership, the first-ever advertising and promotion 
campaign aimed at bringing more overseas travelers to the U.S.
    In today's difficult fiscal environment, every program must justify 
its budget--and Brand USA is no exception. That's why I believe it is 
critical to underscore that not one single taxpayer dollar goes to 
support this organization.
    While Congress and the Administration should be applauded for their 
leadership in enacting this legislation, it's important to recognize 
that the U.S. is really playing catch up when it comes to competing in 
the market for international travelers. Right now, Western Europe 
currently captures 37 percent of outbound travelers from China, Brazil 
and India compared to just 16 percent for the U.S.\10\ But our European 
competitors are working to gain even more market share--at our expense. 
This year, the U.K. announced a goal of bringing four million more 
overseas visitors to the country over the next four years--and is 
dedicating the resources to make it happen.\11\
---------------------------------------------------------------------------
    \10\ U.S. Travel Association based on data from Office of Travel & 
Tourism Industries and Oxford Economics, as cited in Ready for Takeoff, 
U.S. Travel Association.
    \11\ Ready for Takeoff, U.S. Travel Association.
---------------------------------------------------------------------------
    The U.S. is also facing competition outside Western Europe. South 
Korea recently launched the Visit Korea campaign aimed at attracting 
8.5 million additional travelers. Just to our south, the Mexican 
government has labeled 2011 ``the year of tourism'' as part of its 
effort to make Mexico one of the world's top five tourist 
destinations.\12\
---------------------------------------------------------------------------
    \12\ Ibid.
---------------------------------------------------------------------------
    The second policy priority centers on reforming America's 
burdensome, bureaucratic, costly visa system. At a time when other 
countries are actively competing to win more global travel business, 
our visa system operates like a giant ``Not Welcome'' sign.
    Reform starts by increasing visa access for the millions of people 
seeking to travel to the U.S.
    There are twenty-seven cities in China with populations greater 
than two million people--and no U.S. visa processing center for 
prospective travelers.\13\ In the entire country, only five U.S. visa 
processing centers serve China's 1.3 billion people.\14\ Many potential 
Chinese visitors to the U.S. must travel hundreds of miles to apply for 
a visa. Once they arrive, they often confront long lines, cramped 
facilities and hard-working but over-stretched consular officers.
---------------------------------------------------------------------------
    \13\ Ready for Takeoff, U.S. Travel Association.
    \14\ Ibid.
---------------------------------------------------------------------------
    To be fair, the U.S. State Department, which administers our visa 
system, has recently taken steps to make America's visa process more 
efficient and more user-friendly in select countries. The travel 
industry has been working closely with the State Department to identify 
opportunities for improvement and to implement the necessary reforms. 
I'd especially like to commend Deputy Secretary Tom Nides for his 
commitment to this effort.
    As a result of reforms already undertaken, wait times for Chinese 
citizens who wish to obtain a visa have decreased from more than 60 
days in the past year to just 12 days in October.\15\ This is progress, 
but more work remains to be done. As of this week, travelers from 
Brazil's capital city are still waiting more than 100 days for their 
visas to be processed.\16\
---------------------------------------------------------------------------
    \15\ U.S. Travel Association.
    \16\ Ibid.
---------------------------------------------------------------------------
    Rapidly-growing countries like China, Brazil and India represent 
the future of the global travel industry. Over the next decade, long-
haul travel from these three countries is expected to grow by more than 
100 percent \17\--a potential market of millions of additional 
travelers that is literally up for grabs. But to seize this 
opportunity, we must be prepared to meet the increased demand for U.S. 
visas.
---------------------------------------------------------------------------
    \17\ Ready for Takeoff, U.S. Travel Association.
---------------------------------------------------------------------------
    Fixing our visa system requires action on two fronts. Where the 
State Department can act alone, it should do so--and make it a high 
priority. But Congress also has a critical role to play.
    One area where Congress can have a substantial impact is expanding 
the Visa Waiver Program. Countries participating in this program work 
with the State Department to allow their citizens to visit the U.S. for 
up to 90 days without a visa. In 2010, 65 percent of the 26 million 
overseas travelers to the U.S. came from the 36 countries in the Visa 
Waiver Program.\18\ Adding countries such as Brazil, Poland and Chile 
could quickly double arrivals from these three countries, generating an 
additional $7 billion in spending in the U.S. and creating more than 
50,000 American jobs.\19\
---------------------------------------------------------------------------
    \18\ Ibid.
    \19\ U.S. Travel Association.
---------------------------------------------------------------------------
    I would like to thank Chairwoman Klobuchar and Senator Begich for 
co-sponsoring S. 497--a bill introduced by Senators Mikulski and Kirk 
which would expand the Visa Waiver Program.
    But boosting the number of countries in the Visa Waiver Program is 
not enough. That is why I also applaud Chairwoman Klobuchar and 
Subcommittee Members Blunt, Heller and Warner for championing 
legislation that would incentivize the State Department to make the 
visa process more efficient and effective. This bill would give the 
State Department the ability to reinvest visa fees to hire more 
consular officers. It also allows the Department to waive visa 
interviews for three years for travelers who previously held a visa.
    Senators Schumer and Lee have also demonstrated strong leadership 
by introducing the VISIT U.S.A. Act. This bill would make it easier for 
Chinese citizens to visit the U.S.; expedite the visa process for 
travelers willing to pay a premium; and create new guidelines that 
would make it easier for the Departments of State and Homeland Security 
to designate new countries for the Visa Waiver Program.
    The third and final strategic priority I would like to address is 
America's inadequate infrastructure, specifically our aviation 
infrastructure: the runways, terminals, security checkpoints and air 
traffic control systems that serve as a gateway to our Nation for 
international travelers.
    One visit to a U.S. airport is usually enough to persuade visitors 
that our aviation infrastructure is antiquated, inefficient and 
unwelcoming, but here are a few facts to back up the case:

  <bullet> According to the Building America's Future Education 
        Foundation, the U.S. aviation infrastructure ranks 32nd in the 
        world behind countries like Panama, Chile and Malaysia.

  <bullet> Five of the world's 10 busiest airports are in the 
        U.S.\20\--but not a single U.S. airport made the list of the 
        world's 10 best.\21\
---------------------------------------------------------------------------
    \20\ Airports Council International, as cited in, ``World's Busiest 
Airports, as Listed by the Airports Council International,'' Huffington 
Post, March 16, 2011, http://www.huffingtonpost.com/2011/03/16/worlds-
busiest-airports-a_n_836220.html#s254206&title=1_Atlanta_89331622.
    \21\ ``The 10 Best Airports in the World,'' Business Insider, March 
30, 2011, http://www.
businessinsider.com/best-airports-in-the-world-2011-3?op=1.

  <bullet> The American Society of Civil Engineers gave U.S. aviation 
        infrastructure a ``D''--and they were grading on a curve.\22\
---------------------------------------------------------------------------
    \22\ ``Report Card for America's Infrastructure,'' American Society 
of Civil Engineers, 2009 http://www.infrastructurereportcard.org/.

    The simple fact is, our runways cannot keep up with demand; our 
aging terminals were not designed to handle modern security needs; and 
our air traffic control system relies on ground-based radar technology 
that is more than a half-century old. A new car equipped with GPS has a 
more sophisticated navigation system than the average commercial 
airliner. The result: Flight delays, long waits on the tarmac and 
security chokepoints that frustrate and deter both international and 
domestic travelers.
    No wonder New York Times columnist Tom Friedman recently wrote that 
landing at Kennedy airport after a trip from Hong Kong was like ``going 
from the Jetsons to the Flintstones.'' \23\
---------------------------------------------------------------------------
    \23\ New York Times, Dec. 24, 2008.
---------------------------------------------------------------------------
    Modernizing and upgrading our aviation infrastructure will require 
a significant investment, but consider the costs already being imposed 
on our economy. Flight delays at New York's three major airports cost 
the regional economy $2.6 billion in 2008, according to a study by the 
Partnership for New York City. By 2025, the costs due to expensive 
delays, lost productivity, wasted fuel and harmful pollution could 
reach a cumulative $79 billion.\24\
---------------------------------------------------------------------------
    \24\ ``Grounded: The High Cost of Air Traffic Congestion,'' 
Partnership for New York City, February 2009 http://www.pfnyc.org/
reports/2009_0225_airport_congestion.pdf.
---------------------------------------------------------------------------
    Unfortunately, when it comes to implementing long-term plans to 
modernize and upgrade America's infrastructure, Washington's 
legislative process is almost as gridlocked as our Nation's airports. 
The Surface Transportation Act expired in 2009 and is currently on its 
eighth temporary extension.\25\ Legislation to fully fund the 
transition to the Next Generation Air Transportation System is mired in 
controversy.
---------------------------------------------------------------------------
    \25\ U.S. Senate and Transportation and Infrastructure Committee, 
http://republicans.
transportation.house.gov/singlepages.aspx/911.
---------------------------------------------------------------------------
    Meeting these challenges will require bipartisan leadership. 
Perhaps it will require new thinking, as well. I, for one, believe we 
should also be pursuing innovative public-private partnerships to 
leverage increasingly scarce resources. One interesting idea is Los 
Angeles County's ``30/10 initiative''--a proposal to use local revenues 
and Federal loans to fast-track construction on vital infrastructure 
with the goal of completing 30 years' worth of projects in just 10 
years.\26\
---------------------------------------------------------------------------
    \26\ http://www.metro.net/projects/30-10/.
---------------------------------------------------------------------------
    The main point I would like to impress upon you is the huge 
potential of the global travel market. Tapping into this potential 
promises to generate U.S. economic growth, promote job creation and 
spur small business expansion. The process starts by establishing a 
national goal of reclaiming America's 17 percent share of the global 
travel market.
    In my industry alone, simply restoring the U.S. share to 2000 
levels would create more than 400,000 new jobs by 2015.\27\ Working 
together--Democrats and Republicans, Congress and Administration, 
government and industry--we can compete and win in this fiercely 
competitive market. As Chairman Emeritus of the U.S. Travel 
Association, I can tell you that our members stand united and ready to 
work with you to accomplish our common goals.
---------------------------------------------------------------------------
    \27\ U.S. Travel Association.
---------------------------------------------------------------------------
    Given this industry's presence in 50 states and 435 congressional 
districts; primacy as an economic force in both rural and urban 
America; and the capacity for near instantaneous job creation through 
expansion and new business start-ups--surely these issues should earn 
the bipartisan support that they deserve.
    I thank you again for inviting me and look forward to answering any 
questions from the Committee.
                                 # # #

    Senator Klobuchar. Thank you very much.
    Senator Begich has agreed to take over my presiding time at 
4 so he is going first.
    Senator Begich. Thank you very much, Madam Chair. I have to 
make it to the floor by 4 o'clock so I'm just going to ask one 
quick question. I have some for the record. But Mr. Tisch--
Jonathan, thank you for your comments on the infrastructure.
    The FAA bill, as you know, with next-gen could make a huge 
impact. I think you made it very clear, and it's interesting 
because usually we hear from the aviation industry about the 
importance of the FAA bill.
    So your voice and other industry out there is an important 
part of this equation.
    So I thank you for that. And the more you can generate that 
interest, especially the way you played it here wasn't about 
just improving safety, which is an important part, it's about 
the impact of travelers to and from communities outside of the 
United States coming here and what that means for job creation. 
So thank you for putting that on the record.
    Let me ask you, in your written testimony you do go into a 
lot about the infrastructure. Here's one piece of 
infrastructure and tell me your thoughts on this and that is 
visitors from around the world come to the United States not 
only to visit great cities and great communities but they come 
to our national parks and our park systems and our natural 
environments.
    Alaska, obviously, that's a huge part of our equation and 
how we attract so much. Give me your thoughts there because you 
talked about water, roads and airports but what about that 
piece of the infrastructure? How does that play into the 
industry and do we do enough?
    Mr. Tisch. Well, Senator, as you know, the United States is 
blessed with so many demand generators. There are reasons why 
people want to come here, and now with Brand USA, with other 
marketing campaigns, we are articulating a vision for how we in 
the industry feel we can handle them once they get here.
    But if our infrastructure is broken, if it is like a third-
world nation, then they are going to leave with a bad 
impression, and their comments to their neighbors and their 
family members are so important. When you talk about our 
national parks, clearly, they are a major reason why people 
want to come here.
    It's not just the big cities. It's not just New York, in my 
case, or Las Vegas or you as a former mayor understand that, 
coming from Anchorage. You understand why people travel.
    But there is so much for them to do once they get here and 
that's why the international traveler stays longer in a 
destination than the domestic traveler. They move around the 
country. They come in through--certainly, through the gateway 
cities but then once they're here they move on.
    And it's important for all of our infrastructure to be 
looked at in a way that we can keep it vibrant, we can keep it 
strong and we can stay competitive. And the reason I started 
talking about these issues is that I took my family to 
Australia and Hong Kong in March, and I will quote Tom 
Friedman, who made a similar trip like I made, ``flying from 
Hong Kong to JFK is like going from the Jetsons to the 
Flintstones.''
    [Laughter.]
    And I landed at Kennedy after leaving Hong Kong some 14 
hours earlier and I was appalled, and I think we have to keep 
the competition of countries that want travelers coming to them 
in mind as we look at all these issues but infrastructure plays 
out in so many areas and, certainly, your comment about 
America's great parks are an important aspect of that.
    Senator Begich. Thank you very much.
    I apologize I have to leave. But as you travel quite a bit, 
I have to travel a lot to get back home, to say the least.
    But one trip I took recently was through San Francisco's 
Airport and there was a segment that was renovated. I think it 
was Virgin Air was utilizing it and I have to tell you it was 
an interesting experience. TSA, very customer oriented at that 
one location. Going into it you could tell it was all 
renovated, very pleasing when you walk through there.
    It was a very interesting environment than some of the 
airports that I'm sure you've traveled through and I've 
traveled through. I know in our airport in Anchorage it's an 
incredible renovation we've done there.
    But it was interesting on the lower 48 going through that 
airport. That segment was very interesting and impressive and 
the couple pieces I took some notes on what we could do to 
improve.
    So thank you very much. Thank you to all of you and Brand 
USA, fantastic. Thank you.
    Senator Klobuchar. Thank you very much, Senator Begich.
    I'd also note as you listed the people involved with the 
visa legislation Senator Begich is also one of the co-authors.
    Senator Blunt, your questions?
    Senator Blunt. I thank the Chairman.
    Mr. Tisch, thanks again for all your help with the Travel 
Promotion Act and the Travel Promotion Corporation, and I've 
heard and share your frustration with infrastructure within the 
existing system. I mean, you've run a hotel chain that, you 
know, caters to families and pets and what--you try to be what 
people want you to be.
    What could we do within the existing system to try to make 
that more welcoming? And obviously, I think everybody on this 
Committee is for--are infrastructure believers and we know we 
need to do that but what could we do in the shorter term to 
make some of those facilities more welcoming, do you think?
    Mr. Tisch. Well, Senator, when you look at the various 
entities that make up our country's travel and tourism 
industry, you see segments that, obviously, as you've 
mentioned, deal with people individually.
    They deal with them in crowds. They deal with families. 
They deal with business travelers. I'm thinking of the 
airlines. I'm thinking of hotels. I'm thinking of the 
attractions. And over the years, the industry has offered to 
work with Homeland Security and the State Department to discuss 
ideas, best practices, for how we do things.
    How do you keep a crowd at Disney or Universal happy when 
they're walking up to a line and it says 1-hour wait? What are 
the ways that we can look at to break down the inherent 
frustration with travel?
    Things are going to happen. It's just the nature of the 
beast. There's going to be bad weather. There are going to be 
delays. But what can we do as an industry working with certain 
government agencies to talk about what's been successful for 
us?
    And a couple of years ago, Disney put together a film when 
Jay Rasulo was then chair of the U.S. Travel Association. Jay 
is now CFO at Disney but he was head of Resorts, and actually 
Jay and I testified in this very room to talk about the Travel 
Promotion Act and to look at the way we can do things.
    And just as Disney put together this film that's played at 
a couple U.S. airports I think that's an example of what we can 
do in terms of industry helping government agencies, using some 
of our experience to really tackle some of the challenges that 
travelers feel.
    Senator Blunt. Thank you.
    Mr. Evans, we've talked a lot about the visa countries that 
require visas and how we need to be sure that process works 
correctly.
    But there are lots of countries that don't require visas 
and how does that figure into your strategy for Brand USA--
where you are spending your money, who are some of your 
partners. What's your plan for the next couple of years as it 
relates to targeting?
    Mr. Evans. Our key target markets will be identified 
through extensive research, through working with the Commerce 
Department, really looking at the population, their current 
travel, the potential of their travel, the average spend of 
their travel to make sure that we're investing where the best 
opportunities are.
    So we'll begin with--more than likely we'll begin with 
traditional market places like the U.K., Canada, Mexico, Japan.
    But as we get our footing and our funds raised and our 
expenditures at the levels we need then we will expand our 
marketing into, you know, India, China, Brazil and that, 
obviously, is going to happen in this first year, we believe.
    Senator Blunt. And in terms of raising money from partners, 
what's happening there?
    Mr. Evans. We've done well, I believe. We've raised $4.3 
million in cash and we've raised over $12 million in in-kind 
and we will be taking our first tranche to Commerce next week 
for approval so that we can draw down from the ESTA funds, and 
the ESTA funds right now are $123 million.
    Senator Blunt. One hundred and twenty three right now?
    Mr. Evans. Hundred and twenty-three.
    Senator Blunt. And the reception in London to your rollout 
of Brand USA?
    Mr. Evans. I'm probably a bit prejudiced but I think that 
all the comments I received were very, very positive. I think 
as much as anything people enjoyed the logo. I think they 
enjoyed our presentation.
    I think as much as anything friends like the Receptive 
Service Operators and others just saw it was great that America 
truly is in the game now and we're going to compete. And as 
John pointed out, we're going to take back our fair share and 
then some.
    Senator Blunt. Mr. Zuk, do you believe that this marketing 
overseas will make a difference in people traveling and working 
through your organization?
    Mr. Zuk. Thank you, Senator. Yes, we--I was at the launch 
in London as well and from the press release on Monday morning 
through the party on Tuesday, the general feeling from all our 
clients, which are the people who facilitate the travel to the 
U.S., especially in the visa waiver countries, is that finally 
the USA has a brand and has an overseeing, let's say national 
body that will facilitate travel, and definitely everybody's 
looking forward to working with Brand USA to create even more 
of our share.
    It's an easy sale because people want to come to America, 
thanks to Hollywood, thanks to publicity, thanks to many 
different things and our obviously natural attractions that we 
have throughout the country, and this will only serve to 
enhance as long as we work together and make it much better 
than it's been before.
    Senator Blunt. Thank you. Thank you, Chairman.
    Senator Klobuchar. Thank you very much.
    Mr. Evans, you spoke with Senator Blunt about some of the 
work that's being done. What do you see as the challenges to 
get the advertising campaign rolling and what steps are you 
taking to make sure the launch is a success?
    Mr. Evans. We're, obviously, in a very beginning stages of 
our preparation for our marketing. Our targeted launch for 
advertising campaign is March 7 at ITB, the world's largest 
travel industry show.
    Between now and then, I think the challenges are making 
sure that the team that we add--or the folks we add to our 
team--are the right folks.
    I think the challenges are making sure that we identify the 
right partners to begin to work on our cooperative efforts, and 
we're working on that right now.
    Obviously, we need to continue on our business development 
activities to make sure we get the full $50 million raised this 
year as we have the two-for-one match.
    So I think we're doing well. JWT is off to a great start 
with us. We've actually seen story boards of our campaign 
already. We're meeting with a variety of small and large 
destination management organizations.
    We're meeting with several large and small travel industry 
brands. We're communicating, as Mr. Zuk said. We met last week 
with Visit USA Europe and the United Kingdom to begin that 
dialogue and to listen to them.
    And so I think we're putting all the pieces in place. The 
challenge is making sure we stay organized and focused, raise 
the funds we need, and deliver on time.
    Senator Klobuchar. Very good.
    Mr. Edman, you talked about how the target markets in 
Minnesota include the United Kingdom, Scandinavian countries, 
Germany, Japan, Mexico.
    How do you see yourself partnering as this launches with 
Brand USA and how do you reach those markets now as a state 
with a limited budget for your tourism?
    Mr. Edman. Well, Madam Chair, right now with our limited 
budget we don't have the opportunity to do any consumer 
advertising. A lot of what we do is working with tour operators 
and the media so we can really only scratch the surface.
    The thing that makes me very excited about the launch of 
Brand USA is it gets all diverse 50 states working together as 
one. As a relatively small state, we have 108 convention 
visitors bureaus in our state and a very diverse state, and my 
job is get them to work together.
    Jim has even a bigger job in working with 50 states and up 
until this point all states were kind of--it was a free for 
all. Every state was doing their own international marketing on 
their own and there wasn't any cohesive brand for the United 
States.
    So I think this is going to help a state like Minnesota 
give a stronger presence, do things that we cannot do on our 
own and do things in cooperation with other states.
    Senator Klobuchar. I will say you've done some great ad 
campaigns in our own state, though, and could you talk about 
how--you mentioned how, because of the economic downturn with 
some improvements this year but people have been making 
decisions at the last minute of where to travel.
    How have you incorporated any of that and how we have 
handled advertising and how you've handled trying to work with 
the industry on some of these things that have come about 
because of the downturn?
    Mr. Edman. I think that's a challenge that every state has 
had over the last three or 4 years, that people are cautious 
about their travel spending dollars. They're not going as far 
from home in their travel. But now they are starting to branch 
out a little bit.
    What we've learned in all of our states is that people 
still want to travel despite the concerns of the economy, 
despite the concerns about gas prices or whatever. People want 
to get out and travel. That's a freedom. That's something that 
they all enjoy do, they need to relieve stress and to explore 
our incredible country.
    So we've kind of responded in some of our advertising. 
We've done some changes in terms of what our targets are, who 
we're targeting a little closer in. But right now, we're kind 
of at the point where the country wants to take off in terms of 
growth in travel and tourism.
    There are concerns about travel confidence and the overall 
economy and unemployment that's holding people back a little 
bit. But we feel we're moving in the right direction and 
efforts such as the Brand USA will certainly help get us there.
    Senator Klobuchar. And you've seen over the years increased 
interest in international tourism in our state and what do you 
attribute that to? This is where you're supposed to say it's 
not the weather.
    Mr. Edman. Well, earlier I think a question was about what 
can you, as members of the Senate and Congress, do and that's 
invest in the natural resources, the infrastructure, the 
bridges, the roads that we sometimes take for granted.
    In a state like Minnesota, we may not be on folks' radar 
but they know about the natural--they know about the 
Mississippi River. They know about the Great Lakes. In fact, we 
partner with other states, the Great Lakes states and states 
along the Mississippi River, to use those common geographies.
    And so I think to sort of answer your question why is there 
an interest, because people are now starting to discover the 
United States and they're starting to look at what they know.
    Every country is different in terms of what they seek. 
Japanese are very interested in shopping. Germans are very 
interested in outdoor and recreation. Scandinavians are very 
interested in visiting friends and relatives and things like 
that in a state like Minnesota.
    But we're seeing some real growth potential and it's a 
market that we want to get involved in much more as a state.
    Senator Klobuchar. Very good.
    Mr. Zuk, Mr. Edman was talking about some of the trends 
we're seeing and in your testimony you talk about rural tourism 
as well and how people are interested at times in going to some 
of the out-of-the-ordinary attractions that you might not 
expect, like this world's second largest ball of twine, which 
is in our state, right, Mr. Edman?
    Mr. Edman. That's correct.
    Senator Klobuchar. And so I was curious about that. I 
remember visiting Denmark once with my family where they have 
those farm visits and we actually went to a farm that was 
advertised. I thought, my daughter was 4 years old, she would 
like that it had cows, horses and pigs. It had three cows, one 
horse and 3,000 pigs.
    But it was actually--we had a great time and I was thinking 
about that in terms of as we roll this out just the rural areas 
of our country beyond the great City of New York and other 
things and what you see as the trends there and the potential 
as we market our country as a whole to get people to these 
kinds of destinations.
    Mr. Zuk. Thank you, Madam Chair.
    The United States is viewed as a long-haul destination, 
which means in simple terms that you have to travel far to get 
there, and if we look at Europe as a target market we compete 
with Australia or Brazil or South Africa or the Indian Ocean, 
which are considered long-haul destinations.
    It's difficult to get people to travel all the way to the 
U.S. to see a rural destination without one of the significant 
draws. It may not be fair but that's the reality of it.
    If we combine things like that with New York or Las Vegas 
or the traditional visitor destinations like Florida or 
California, yes, there are definitely many markets that are 
interested in that.
    The Italians, for example, are crazy about dude ranches. 
Don't know why but they all see themselves as cowboys and they 
want to go to dude ranches.
    So they, do, in Minnesota and in Arizona they go to dude 
ranches all the time. It's something that they do but they do 
it in conjunction with. They'll do it in conjunction with New 
York or Las Vegas or California. They won't come only for that.
    Rural areas, it's a little bit more difficult to convince 
somebody to spend the money involved in a long-haul destination 
for only that. That's why the partnerships and one brand which 
encompasses the entire country can utilize and we can bring 
tourists to maybe destinations that won't see tourists unless 
we do it all together.
    Senator Klobuchar. Very good.
    Mr. Tisch, one last question here. You talked about with 
Senator Begich about the infrastructure issues and as you know 
the FAA expects the number of passengers on U.S. commercial 
carriers to exceed an astounding 1 billion people by 2015. That 
level of air traffic is going to mean a lot of airplanes in the 
sky.
    Do predictions like these mean that we need to accelerate 
the transition to next-gen and could you talk about that 
aviation infrastructure?
    I'm sort of getting at the importance of getting the FAA 
bill done. Not to be a leading question, but with the home of 
three major airports--well, Newark's in New Jersey but in your 
area there, could you talk about the importance of aviation 
improvements in our country?
    Mr. Tisch. Senator, the passage of next-gen is essential if 
we're going to handle the expected capacity that hopefully will 
come to this country over the next few years, the next decade, 
the next two decades.
    Our system is broken and, once again, the competition. When 
you look at China where they're building something like 15 new 
airports from scratch and not only the airports but the roads 
that lead up to the airports, and not only the roads but 
subways and trains that get you from downtown areas to the 
airports, that's the competitive nature of travel in today's 
world and we have to as a country have the focus and the 
discipline to do something about it.
    These infrastructure improvements and next-gen are very 
expensive. There's no doubt about it.
    But we can create public-private partnerships to deal with 
these challenges. If you look what's happening in Los Angeles 
County now with the program called 30/10 where they're trying 
to do 30 years of infrastructure improvements in the next 10 
years and they're using tax dollars as down payments on 
government loans.
    If you look at the Infrastructure Bank supported by the 
AFL-CIO and the U.S. Chamber of Commerce, issues and areas that 
we can agree on publicly, privately, public-private 
partnerships, use offshore investment, use sovereign wealth 
funds who want to invest in this country, this is the focus 
that we need as a country with the private-sector support, and 
next-gen is an essential part of this to make sure that we have 
an air traffic system that can support the expected travel.
    Senator Klobuchar. Thank you very much. Well said.
    Senator Blunt, do you want to add anything here at the end?
    Senator Blunt. It was good hearing, Chairman. Thank you for 
putting--helping put both of these panels together and holding 
the hearing, and I think we need to move forward and we look 
forward to our partners working with us as we do that.
    Senator Klobuchar. Well, thank you very much. This was, as 
I said, one of the best news hearings we've had in a while, 
just generally, but also because we are making changes and we 
know we have a lot more work to do and I wanted to say the 
record will remain open for a week.
    We have eight Senators here. Senator Boozman was also here 
and was here to hear some of the witness testimony, and wanted 
to thank all of you, thank our staff, Senator Blunt's staff, my 
staff, Margaret McCarthy, her first hearing with me. She used 
to work for Senator Dorgan and was involved in the Travel 
Promotion Act so we're glad to have her here, as well as the 
Commerce Committee staff for all their work on this hearing.
    Thank you to all our witnesses and everyone here that wants 
to move forward with Brand USA.
    The hearing is adjourned.
    [Whereupon, at 4:14 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of the Hon. Tom Udall, U.S. Senator from New Mexico

    New Mexico describes itself as the ``Land of Enchantment,'' and 
each year my state welcomes 12 million visitors. This is six times the 
number of people who call New Mexico home.
    Visitors travel from around the world to attend New Mexico's many 
festivals and cultural events, such as the annual Albuquerque 
International Balloon Fiesta and Santa Fe Indian Market. With its 
unique local art community and stunning landscapes from Shiprock to the 
White Sands dunes, New Mexico has a lot to offer to visitors.
    Tourism and travel contribute $5.5 billion to my state's economy, 
and represent New Mexico's largest private sector employer. Many of 
these jobs are in rural areas with high rates of unemployment.
    Yet tourism in New Mexico and other parts of the United States 
provides more than an economic boost. Tourism is a form of public 
diplomacy that fosters good will for our country around the world.
    I am pleased to learn today about implementation of the Travel 
Promotion Act, a bill that I was proud to cosponsor. I also 
particularly look forward to hearing about Brand USA and its progress 
on a new campaign to showcase our Nation's travel destinations and 
experiences.
    I am hopeful about projections that estimate the tourism industry 
will improve in the next five years. But America must continue to 
compete for its share of the international tourism market in a tough 
economic climate.
    In conclusion, I want to extend my thanks to Senator Klobuchar for 
calling this hearing today and thank our witnesses for sharing their 
input and insights into how tourism can thrive again here in the United 
States.
                                 ______
                                 
    Prepared Statement of Starwood Hotels & Resorts Worldwide, Inc.

    The following statement is submitted on behalf of Starwood Hotels & 
Resorts Worldwide, Inc., and we are very pleased to begin by commending 
Chair Klobuchar and the Members of the Subcommittee on Competitiveness, 
Innovation, and Export Promotion for the work they have done and for 
their tireless dedication to the promotion of inbound U.S. travel and 
tourism. We are pleased that you understand the potential for economic 
growth in restoring, and eventually even exceeding, the U.S. inbound 
travel levels that existed pre-9/11. You have focused on some of the 
legal and regulatory issues that need to be addressed if these levels 
are to be achieved, and we look forward to working with you to reach 
these goals.
    Starwood is well positioned to address the myriad issues that 
adversely affect inbound U.S. tourism, including those issues that were 
discussed in your hearing. Starwood is one of the world's largest hotel 
companies, operating or managing close to one thousand properties 
throughout the world, and employing close to 150,000 people, in hotels 
operated under our nine hotel brands. Starwood's operations reach all 
corners of the globe. We are in a unique position to evaluate and 
compare the policies of the United States with respect to foreign 
visitors and foreign investment with those of U.S. trading partners and 
competitors.
    We agree that delays in visa processing in key markets, including 
China, India, Brazil and Chile, are having an extremely negative impact 
on U.S. tourism and applaud the incremental steps that have been taken 
so far by the State Department to address these problems. We applaud as 
well the creation of Brand USA, Inc. and the renewed effort as a result 
to promote inbound U.S. tourism.
    As to the visa issue itself we recognize that there are limitations 
on what changes can be made administratively, and that budget 
reductions will also impact the ability to improve the visa system. 
While Starwood is supportive of the efforts now underway to expand the 
number of visa windows in key markets, especially China, and to hire 
additional via processing officials, even on a non-career basis, we 
also urge the Congress to seriously consider pending legislative 
changes to the visa process. In their VISIT-USA Act, Senators Schumer 
and Lee have made several proposals to provide long term visas to 
Chinese tourists and for longer term visits by Canadian citizens, and 
to potentially facilitate the visa interview function through 
teleconferencing technology, sparing potential visitors the expense and 
time needed to travel to U.S. Embassies and Consulates, a growing 
problem in countries such as China in which there are already very 
limited processing facilities. These proposals should be given very 
serious consideration.
    There is no question that U.S. national security must be protected, 
but it is telling that the wait time for obtaining a visa in Brazil to 
visit Britain is twelve days, while a U.S. visa still takes up to 
ninety days. Britain has serious national security concerns as well but 
has somehow managed to understand the concept that it can protect 
itself from terrorists while opening up its tourism sector.
    The fact is that while much more work needs to be done to address 
the demand for visas, the downturn in U.S. travel and tourism is the 
result of a much larger problem, namely the unfortunate development 
over time of a set of fundamental policies that have made the United 
States an increasingly less attractive place to which to travel, both 
for tourism and for business, which will not be fully resolved through 
visa reform. While the drop off in inbound tourism is generally 
traceable to 9/11, the deterioration in policy goes much further back.
    Simply put, America will not reach the levels of tourism that it 
had prior to 9/11 until it changes a set of policies that discourage 
not only leisure travel, but business travel and investment as well. 
Adding more visa windows in China will certainly help, but will not in 
and of itself create the attitude that once existed overseas that the 
United States is both the primary place to visit and to do business.
    There are several places to go to bring about these greater changes 
only some of which are in this Committee's jurisdiction.
    The United States should start be renewing its commitment to the 
notion that travel and tourism is a key export market, and adopt 
policies that advance this concept. While there has been a great deal 
of debate recently over the role of exports in growing the U.S. 
economy, too many policymakers neglect to mention that in bound tourism 
should also be considered a vital U.S. export and promoted as such. The 
U.S. benefits both from exporting goods overseas and from increasing 
the number of foreign visitors to the U.S. Visitors to the U.S. on 
average spend $4,000 per trip--all of which contributes favorably to 
our international balance of payments. U.S. products and services are 
consumed, and in both cases, greater demand for American goods and 
services will lead to an expansion of the job market and economic 
growth.
    Few exports create jobs as effectively as travel and tourism. On a 
micro level, economists estimate that one new job is created in the 
United States for every thirty-six foreign visitors. In the aggregate, 
it is estimated that the restoration of America's pre-2001 historic 
levels of inbound foreign travel would create an additional 1.3 million 
U.S. jobs over a decade, and produce an additional $859 billion in new 
economic output.
    The impact of these statistics is clear; it is equally important to 
promote tourism as a means to grow the economy as it is to promote 
manufacturing. And, while there has been a great deal of debate over 
the deteriorating U.S. manufacturing infrastructure, there must also be 
a focus on the travel and tourism infrastructure.
    There is no question that travel facilities, including airports, 
overseas are in many instances far more modern and attractive than 
similar facilities in the U.S., and that foreign travel authorities 
have done a far better job in reducing travel wait times or in finding 
ways to make wait times more bearable. Stories about passengers being 
trapped on airplanes at U.S. airports for multiple hours, or about 
massive wait times and missed flights help to paint a negative picture 
of the U.S. to foreign visitors.
    The creation of Brand USA is certainly a symbol that this is not 
the image that the U.S. wishes to project overseas, and a commitment to 
remind the world of the many attractions that are worth seeing in the 
United States. Brand USA, Inc., however, has no power to put together 
the capital needed to improve the travel infrastructure of the United 
States. And, the focus on the debt crisis in the U.S. likely will mean 
that the Federal Government will have less, not more, to spend on the 
larger costs of improving our travel infrastructure. Any effort to 
truly rebuild America's preeminent position as a travel destination 
must focus on the private sector, and yet current U.S. fiscal policies 
make it difficult to raise the private sector capital needed to 
encourage the investments that will once again make America's travel 
facilities the best in the world.
    Current Federal tax policy, for example, has the unfortunate effect 
of discouraging investment in the U.S. by failing to keep up with 
developments in many foreign nations, including all of our major 
trading partners, which facilitate capital formation. Earlier this year 
when Japan reduced its corporate tax rate, the U.S. became the OECD 
nation with the highest corporate tax rate (35 percent), and one of the 
few that continues to adhere to a policy of taxing U.S. companies on 
their worldwide incomes. Moreover, current U.S. tax policies encourage 
American companies to keep their foreign profits overseas, reducing the 
amount of capital available in the U.S. for investment and economic 
growth. Estimates suggest that U.S. companies are holding in excess of 
$1.5 trillion in foreign earnings overseas, and absent a change in tax 
policy, are likely to keep and invest these earnings overseas rather 
than in the US. Simply put, instead of investing these funds to build 
new travel facilities in the U.S., they are being used to expand the 
travel infrastructure in China, India, and Europe.
    Changes in tax policy that encourage investment in the United 
States are a good start, and should be considered in conjunction with a 
renewed focus on facilitating the easing of credit for the construction 
in the United States of new hotel and resort properties as well as the 
larger travel infrastructure. The United States went to great lengths 
to stabilize the financial services sector during the past three years, 
but so far, credit, including business credit, remains very tight. 
There are literally hundreds of shovel ready hotel projects throughout 
the United States simply waiting for credit to ease so that 
construction can start.
    It is very comforting to find that the Members of the Committee on 
Commerce understand and are passionate about the need to elevate travel 
and tourism as a key to economic growth and prosperity, and Starwood is 
grateful for their dedication to these issues.
    But given that some of the issues that have depressed the travel 
and tourism sector as well as foreign investment in the U.S. since well 
before 9/11 are in the jurisdiction of other committees, we urge the 
Commerce Committee Members to reach out to their colleagues on other 
committees, notably Finance, Banking, Homeland Security, and 
Appropriations, to let them know that travel and tourism is a key to 
restoring economic growth and prosperity in the U.S. and to ask that 
they be a part as well of what should be a national conversation and 
commitment to the travel sector.
    By bringing the level of passion and dedication to travel and 
tourism that has driven the Commerce Committee to those other 
Committees, there is a far greater likelihood that the tax, financial 
services, and trade issues that stand in the way of restoring American 
tourism will also be addressed, and in so doing, the U.S. could be well 
on its way to becoming once again the world's primary destination for 
travel and investment.
                                 ______
                                 
          Prepared Statement of the National Retail Federation

    The National Retail Federation (NRF) respectfully submits this 
statement for the record for the November 17, 2011 hearing entitled 
``Tourism in America: Moving Our Economy Forward.'' NRF would like to 
thank Chairman Klobuchar, Ranking Member Blunt and the members of the 
Subcommittee for holding this important hearing. NRF fully believes 
that the quickest way to stimulate the U.S. economy is to improve the 
current visa process to allow more foreign travelers, especially those 
from growing economies, to gain access to the U.S. market. These 
improvements can be accomplished without any adverse impacts on U.S. 
security.
    Because of the burdensome U.S. visa policy, the travel sector, 
including the retail sector, is losing access to a broad array of 
consumers who can help improve economic performance in these key 
sectors. While the U.S. retail sector has performed better than the 
overall U.S. economy over the past year, growth in the retail sector 
could have been even stronger had more international travelers had the 
opportunity to visit the U.S. and U.S. retail stores. Accelerating the 
visa process to regain the pre-9/11 travel market share could bring in 
nearly 100 million more visitors a year, create more than one million 
new jobs and pump more than $800 billion into the U.S. economy.
    As the world's largest retail trade association and the voice of 
retail worldwide, NRF represents retailers of all types and sizes, 
including chain restaurants and industry partners, from the United 
States and more than 45 countries abroad. Retailers operate more than 
3.6 million U.S. establishments that support one in four U.S. jobs--42 
million working Americans. Contributing $2.5 trillion to annual GDP, 
retail is a daily barometer for the Nation's economy. NRF's Retail 
Means Jobs campaign emphasizes the economic importance of retail and 
encourages policymakers to support a Jobs, Innovation and Consumer 
Value Agenda aimed at boosting economic growth and job creation.
Tourism and the Retail Sector
    With rapidly growing economies creating a new breed of affluent 
shoppers in countries such as Brazil, China and India, U.S. retailers 
have grown to highly value foreign tourists as shoppers in their 
stores. Unfortunately, tourists from these countries face lengthy 
delays in obtaining a U.S. visa because of security requirements 
implemented after 9/11. These delays have led these legitimate 
travelers to visit other countries instead of the U.S., resulting in a 
significant drop in the U.S. share of the international travel 
marketplace.
    There are several key barriers currently in place which are 
preventing increases in overseas travel to America. These include: (1) 
a highly inefficient and unpredictable visa application approval 
process; (2) a lack of personnel to process and interview visa 
applicants as well as a lack of access to a U.S. consular facility; and 
(3) poor planning and communication to applicants. The U.S. visa 
application process can take as long as 145 days in Brazil and 120 days 
in China, two of the fastest-growing markets for outbound overseas 
travel. While the U.S. State Department has improved performance in 
these markets, we are concerned that these improvements may only be 
temporary. The State Department needs to dedicate resources to plan 
appropriately for future growth.
    The delays in the U.S. visa approval process inevitably encourage 
foreign tourists and consumers to go elsewhere. Last year alone, 38 
percent of Chinese tourists went to Europe while only 13 percent came 
to the U.S. As a result, U.S. merchants are missing out on billions of 
dollars in potential sales. The U.S. Commerce Department estimates that 
that 88 percent of overseas visitors shop while traveling in the U.S., 
and goods made by well-known U.S. brands like Nike, Levis and Gap top 
their shopping lists. The most popular destinations for travel and 
shopping are ports-of-entry like New York and Los Angeles along with 
tourism centers like Las Vegas and Orlando. Many U.S. retailers cater 
to these foreign shoppers at their flagship stores in major tourist 
destinations, and retailers often have special programs geared towards 
international travelers which include providing multi-lingual sales 
associates in the stores to help with their shopping experience as well 
as offering special discount cards to these international shoppers.

Recommendations
    Because of the importance of this issue to U.S. retailers, NRF has 
joined the Discover America Partnership. This Partnership unites a 
diverse group of stakeholders behind a set of recommendations contained 
in the ``Ready for Takeoff '' \1\ report issued by the U.S. Travel 
Association. The report outlines common-sense visa reforms that will be 
relatively easy to implement and which could create 1.3 million more 
U.S. jobs and add $859 billion to the U.S. economy by 2020. The 
report's comprehensive, four-step plan will help the United States 
achieve its goal of becoming more competitive in the global travel 
market, which in turn will expand U.S. exports (purchases by tourists 
of products sold by retailers are considered ``services exports''), 
create new jobs and drive economic growth.
---------------------------------------------------------------------------
    \1\ http://www.smartervisapolicy.org/site/documents/VisaReport.pdf.
---------------------------------------------------------------------------
    The report recommends four solutions to improve U.S. visa policy. 
These include:

  <bullet> Align U.S. State Department resources with market demands;

  <bullet> Reduce visa interview wait times to 10 days or fewer;

  <bullet> Improve visa planning, measurement and transparency; and

  <bullet> Expand the Visa Waiver Program.

    In addition to this private sector report, the President's Council 
on Jobs and Competitiveness identified travel and tourism as a way to 
spur job growth. In the Council's October Interim report titled 
``Taking Action, Building Confidence: Five Common Sense Initiatives to 
Boost Jobs and Competitiveness,'' \2\ the Council noted that they were 
focusing on two key areas to improve travel and tourism: promoting 
travel to the U.S. and accelerating visa processing. The report notes 
that the State Department has accelerated visa processing in China and 
Brazil, but they continue to work with the State Department to identify 
other opportunities to improve visa processing.
---------------------------------------------------------------------------
    \2\ http://files.jobs-council.com/jobscouncil/files/2011/10/
JobsCouncil_InterimReport_Oct11.
pdf.
---------------------------------------------------------------------------
Congressional Action
    In light of the recommendations from the Discover America 
Partnership and the focus by the President's Council on Jobs and 
Competitiveness, there have been several bills introduced in Congress 
to address the visa processing issues. NRF calls upon Congress to act 
quickly upon this important legislation in order to provide a 
meaningful boost to the U.S. economy.
    We commend the leaders of the Subcommittee, Chairman Klobuchar and 
Ranking Member Blunt, for introducing the ``International Tourism 
Facilitation Act'' (S. 1653). The bill would give the State Department 
incentives to improve the visa process and enable the Secretary of 
State to grant waivers in appropriate circumstances for additional 
years without requiring additional in-person interviews. We believe 
these important steps; along with other provisions within the bill will 
help the Department improve the visa process.
    In the House, Representative Joe Heck has introduced the 
``Welcoming Business Travelers and Tourists to America Act of 2011'' 
(H.R. 3039), which would set a standard that requires the State 
Department to process visas within 12 days instead of their stated goal 
of 30 days. The bill would also implement a program that utilizes 
videoconferencing technology for conducting visa interviews to help 
alleviate the current backlog.
    Finally, NRF strongly supports language included in visa reform 
provisions included in the Fiscal Year 2012 Department of State, 
Foreign Operations, and Related Programs Appropriations bill (S. 1601) 
that would address visa reform. The provision directs the State 
Department to hire enough consular officers to meet their 30 day 
standard for processing visas; requires the agency to develop a plan to 
meet demand for nonimmigrant visas in Brazil, China and India over the 
next five years; and gives the agency discretion to establish a pilot 
program to use videoconferencing rather than requiring that visa 
interviews take place in person.
    NRF believes that these bills in combination with the current steps 
taken by the State Department will help remove the barriers currently 
in place that discourage international travelers from visiting the U.S.

Conclusion
    We thank you for your attention to this important matter. NRF will 
continue to work with the State Department, business allies and 
supporters on Capitol Hill to ensure that more foreign visitors who are 
eager to visit America can safely enter the U.S. and enjoy all that we 
have to offer--creating jobs for Americans in the process. NRF supports 
strong national security measures and does not advocate lower standards 
for entry to improve the visa process. The State Department, however, 
needs to provide adequate personnel, technology and other resources so 
visa applications can be processed in a timely manner. If you have any 
questions or need additional information, please contact Jonathan Gold 
( <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b6bebdb5bb91bfa3b7ffb2bebc">[email&#160;protected]</a>), Vice President Supply Chain and Customs Policy for 
NRF.
                                 ______
                                 
   Prepared Statement of the United States Tour Operator Association

    Mr. Chairman, Ms. Ranking Member, and members of the Subcommittee 
on Competitiveness, Innovation, and Export Promotion, I am Terry Dale 
and I am proud to serve as President of the United States Tour Operator 
Association (USTOA). USTOA is a professional association representing 
the tour operator industry, which is composed of companies whose tours 
and packages encompass the entire globe. USTOA was founded in 1972 by a 
group of operators who recognized the need for a unified voice to 
protect the traveling public, as well as representing the interests of 
tour operators. In 1975, USTOA became a national organization with 
headquarters in New York. Members of USTOA number among the top names 
in travel and represent the entire spectrum of vacation packages and 
tours available today. USTOA companies move more than 11 million 
passengers and account for a sales volume of more than $9 billion 
annually.
    On behalf of USTOA, I am submitting this statement for the record 
regarding the travel industry's impact on the U.S. economy. I want to 
start by thanking this Committee for their continued focus on tourism 
as a key economic driver. With the economy still struggling and 
unemployment remaining high, it is critical that the private sector, 
Congress, and the Federal Government work together to support travel 
and tourism and encourage increased foreign tourism to the United 
States. USTOA is available to assist in any way to advance tourism 
opportunities at home and abroad.
    First, let me begin by pointing out the significant impact travel 
and tourism has had on the American economy just this year. The 
Department of Commerce's International Trade Administration (ITC) 
recently released some figures for this year worth highlighting. 
According to the ITC:

  <bullet> Annually, the travel and tourism sector supports 7.8 million 
        American jobs and contributes $1.3 trillion to the U.S. 
        economy.

  <bullet> Under the current 2011 projections, 64 million international 
        travelers will have spent $152 billion during their stay in the 
        United States. This is a 13% increase from 2010.

  <bullet> The U.S. is set to have a 2011 travel and tourism trade 
        surplus of $41 billion.

  <bullet> International visits to the United States are expected to 
        grow 5% annually throughout the next five years.

    As these figures point out, attracting and encouraging foreign 
visitation to the U.S. is critical to many of the businesses that USTOA 
members operate, and critical to the U.S. economy as a whole. 
Unfortunately, some impediments within the visa processing system exist 
that result in long wait times and thus discourage visitors from 
travelling to our great nation. Many of our members see the potential 
for additional business opportunities if our visa application process 
were made more efficient and the long wait times shortened. Although it 
is not before this Committee, the USTOA would like to go on record 
supporting S. 1653, the International Tourism Facilitation Act, in 
order to increase U.S. tourism by shortening the excessively long wait 
times foreign visitors face when applying for a U.S. tourist visa. We 
want to encourage increased travel to the U.S. in a way that creates a 
more user-friendly process for international visitors. Such actions 
will go a long way in improving the nation's economy.
    Ensuring that visitors have a pleasant experience upon arrival in 
the U.S. is vital for maintaining and increasing foreign visits to the 
United States. It is essential that we have secure borders in a post-9/
11 environment while simultaneously having security processes and 
programs that facilitate legitimate and efficient travel. The USTOA 
champions an open border policy and has worked with the U.S. State 
Department and other government entities to facilitate tourism 
worldwide. The USTOA will continue to be available as a resource to the 
State Department, the federal government and Congress as they work to 
identify various tools and programs to improve traveler satisfaction.
    Mr. Chairman, thank you for the opportunity to submit this 
statement for the record. The Committee's consideration of USTOA's 
views is greatly appreciated. The USTOA values the leadership and 
efforts of Subcommittee on Competitiveness, Innovation, and Export 
Promotion in support of travel and tourism which is essential to the 
U.S. economy. We look forward to working with the Subcommittee on these 
important issues.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             James P. Evans

    Question 1. I am pleased to hear about Brand USA's marketing 
campaign and to see such a range of travel destinations represented on 
the Discover America website. I look forward to seeing the new 
advertisements this spring. Could you speak about Brand USA's plans to 
promote travel in rural areas?
    Answer. We are currently in the process of meeting with Convention 
and Visitors Bureaus (CVBs) and Destination Marketing Organizations 
(DMOs) from all across the country. In fact, on December 7-8, we are 
hosting a marketing outreach session to learn from state and city 
tourism directors. Among many others, marketing officers from states 
with many rural tourist destinations such as Michigan, Minnesota, and 
North Carolina are attending. Also, we have established Advisory Groups 
to assist our Marketing and Business Development teams develop ideas 
and strategies as we go forward. Members for these Advisory Groups will 
represent both urban and rural areas.
    We continue to develop our campaign creative and content for online 
initiatives. Our plan is to blanket the United States over time and 
provide in all markets interesting perspectives and information 
regarding iconic destinations, national parks, and areas not 
traditionally visited by international travelers.

    Question 2. How else can we help support and promote tourism in 
rural areas? Is marketing ``adventure'' tourism, such as ski and 
rafting packages, the best strategy or are there other promising ways 
to promote rural destinations?
    Answer. Our marketing strategy is built on capturing the United 
States under four marketing pillars: Urban Excitement, Culture, the 
Great Outdoors and Indulgence. Adventure tourism will be an important 
aspect of our Great Outdoors and Indulgence efforts. It is our intent 
to showcase rural outdoor spaces, national parks, and other active 
experiences available to international travelers.

    Question 3. I am pleased to hear that outdoor tourism is one of 
Brand USA's campaign focuses. Outdoor recreation is especially 
important to my state, which is home to 17 units of the National Park 
Service, including parks, monuments, and historic trails. These 
destinations attract tourists from around the world, contribute $3.8 
billion annually to my state's economy, and support 47,000 jobs. What 
is Brand USA doing to encourage outdoor tourism in the U.S.? How else 
might states and the Federal Government help support and promote 
outdoor tourism?
    Answer. With Great Outdoors as a major marketing strategic pillar 
we will certainly be promoting and providing information and booking 
opportunities for outdoor recreation. We have held discussions with 
Jonathan Jarvis, Director of the U.S. National Park Service; Neil 
Mulholland, President and CEO of the National Park Foundation; and 
Derrick Crandall, President and CEO of the American Recreation 
Coalition on the ways in which we can collaborate to promote outdoor 
tourism. We are looking at strategic partnerships and co-operative 
marketing efforts with these and other relevant organizations. In the 
coming months we will continue to meet with groups like these and with 
state tourism offices to flesh out projects of mutual interest.

    Question 4. New Mexico is home to unique Native American sites and 
traditions, such as Bandelier National Monument, Chaco Canyon, the Gila 
Cliff Dwellings, and nineteen Pueblos. The American Indian Alaska 
Native Tourism Association, which is based in Albuquerque, participated 
earlier this year in ITB Berlin, one of the world's leading travel 
trade shows. The organization is also working with the Bureau of Indian 
Affairs on tribal tourism initiatives. What could Congress and the 
Federal Government do to help support these efforts and other cultural 
tourism initiatives?
    Answer. It is Brand USA's intention to exemplify all cultures of 
the country in its marketing and partnership efforts. In fact, one of 
our initial advertisement concepts showcases Native American culture. 
Brand USA would certainly welcome any advice in accessing significant 
Native American sites and populations for purposes of telling their 
story and enticing international travelers to visit and learn more.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                             John F. Edman

    Question. New Mexico is home to unique Native American sites and 
traditions, such as Bandelier National Monument, Chaco Canyon, the Gila 
Cliff Dwellings, and nineteen Pueblos. The American Indian Alaska 
Native Tourism Association, which is based in Albuquerque, participated 
earlier this year in ITB Berlin, one of the world's leading travel 
trade shows. The organization is also working with the Bureau of Indian 
Affairs on tribal tourism initiatives. What could Congress and the 
Federal Government do to help support these efforts and other cultural 
tourism initiatives?
    Answer. My answer would be that those American Indian events and 
sites that wish to promote tourism should be an area of focus within 
the CTP international marketing efforts. From an overall Cultural 
Tourism Promotion standpoint, Congress should include in their funding 
mandates for all cultural programs that a part of their mission needs 
to be to connect their cultural assets to people and that marketing 
needs to be a function of their organization if they are to receive 
funding.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                              Jonathan Zuk

    Question. New Mexico is home to unique Native American sites and 
traditions, such as Bandelier National Monument, Chaco Canyon, the Gila 
Cliff Dwellings, and nineteen Pueblos. The American Indian Alaska 
Native Tourism Association, which is based in Albuquerque, participated 
earlier this year in ITB Berlin, one of the world's leading travel 
trade shows. The organization is also working with the Bureau of Indian 
Affairs on tribal tourism initiatives. What could Congress and the 
Federal Government do to help support these efforts and other cultural 
tourism initiatives?
    Answer. Thank you for your question. We appreciate your interest at 
such a very important and fundamental time for the tourism industry.
    Within the broad picture, information about all of these sites and 
traditions should fall under the umbrella of ``The Brand USA'' and 
should be included in their promotions, specifically on their website 
``Discoveramerica.com''. Although The Brand USA has not yet announced 
its intentions, or the structure for this website, the concept 
preferred by the Receptive Services industry (RSAA) is that as visitors 
tunnel down into the individual States, or groupings on the site, all 
of these wonderful destinations should appear and allow international 
travelers to obtain (initial) information, which would encourage them 
to visit. We are optimistic that The Brand USA will concur with this 
vision and we will continue to monitor the development of their 
marketing campaigns and website.
    It is the belief of RSAA that the intention of the Travel Promotion 
Act is to promote the United States as a whole; not only its great 
cities and tourism icons, but also our less prominent destinations. We 
strongly affirm that our rural heritage is one of the keys to increased 
export tourism dollars. International visitors are mesmerized by the 
cultures of our native people, their history and their traditions. We 
will endeavor to help The Brand USA understand this and encourage 
Congress, the Federal Government and, in particular, the Bureau of 
Indian Affairs, to suggest such organizations as the American Indian 
Alaska Native Tourism Association work jointly with RSAA to create 
programs that can excite our international visitors, and benefit our 
native economies.
    On a more specific basis, several of the destinations you mention 
are already working through the distribution channels of the 
international tourism industry and attract many international visitors. 
You will know that the more prominent places in New Mexico such as 
Santa Fe, Taos and Albuquerque have being doing so for many years and 
each in their turn has hosted gatherings of international tourism 
specialists, including members of our organization, the Receptive 
Services Association. These meetings always feature small, local tour 
companies who can take advantage of such exposure.
    As the key link between such destinations and the international 
tourism distribution system overseas, many receptive tour companies 
already have close working relationships with not only the Federal and 
State organizations, but also such individual tour companies and 
suppliers at the grass-roots level. Indeed, it is exactly these 
partners that we are continually seeking out, so that our international 
guests can visit and be informed by the very guardians of these 
traditions and cultures. Our greatest difficulty is in finding each 
other and then developing a working partnership that will meet the 
specific requirements of each. Sometimes this is easier said than done. 
Again, we encourage the Bureau of Indian Affairs to inform any 
interested parties to contact us at RSAA so that we may help them find 
a voice within The Brand USA and beyond.
    We applaud the effort by Congress in developing and ratifying the 
Travel Promotion Act. We encourage Congress and the Federal Government 
to be vigilant in ensuring that The Brand USA, through its marketing 
efforts, protects and supports the interests of the less publicized 
attractions and points of interest throughout our great country. We ask 
that you urge The Brand USA to work closely with RSAA and its members 
who have the unique knowledge and expertise to ensure the success of 
well-balanced promotional efforts.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                             Jonathan Tisch

    Question. New Mexico is home to unique Native American sites and 
traditions, such as Bandelier National Monument, Chaco Canyon, the Gila 
Cliff Dwellings, and nineteen Pueblos. The American Indian Alaska 
Native Tourism Association, which is based in Albuquerque, participated 
earlier this year in ITB Berlin, one of the world's leading travel 
trade shows. The organization is also working with the Bureau of Indian 
Affairs on tribal tourism initiatives. What could Congress and the 
Federal Government do to help support these efforts and other cultural 
tourism initiatives?
    Answer. The United States is blessed with many world-class 
destinations, important historical sites, and vital cultural heritage 
attractions that both stimulate domestic tourism and encourage 
international travelers to come and visit. While it is true that many 
international tourists enter our country through major coastal or 
gateway cities, there are numerous draws within the Nation that lure 
them to all of our states. New Mexico and the surrounding regional 
Southwest is certainly no exception, and there is significant 
opportunity to attract tourists there from all over the world.
    To do so, however, both the state and the region need visitors to 
have a first class travel experience. That experience often begins well 
before visitors even step foot in our country--for many, it starts when 
visitors are applying for a visa to visit the U.S. Right now, that 
process is burdensome and bureaucratic. Congress should implement 
needed reforms so that the State Department can ensure that 
international travelers experience minimal delay and hassle when 
applying for a visa.
    Once here, international travelers must experience travel that is 
easy, efficient and enjoyable in order to keep them coming back. If a 
visitor is greeted by cancelled flights, lengthy delays on an airport 
tarmac, airports that are antiquated and unable to accommodate today's 
modern security equipment--odds are they will be reluctant to travel 
from gateway cities into the country, let alone book a return trip. But 
if travelers can move easily from Los Angeles to Albuquerque they will 
be more likely to venture on to Chaco Canyon or the Gila Cliff 
Dwellings.
    To make this a reality, Congress and the Federal Government need to 
prioritize upgrades to our Nation's travel infrastructure--particularly 
our aviation infrastructure--to help domestic and international 
tourists have an enjoyable experience traveling to and around the 
American Southwest. Modernizing our air traffic control system, 
expanding our runway capacity, bringing our airports and terminals up-
to-date--all will contribute to improving the travel experience and 
bring more international and domestic visitors to New Mexico.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
